<html>
<title> - RUSSIA: HOW VLADIMIR PUTIN ROSE TO POWER AND WHAT AMERICA CAN EXPECT</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




  RUSSIA: HOW VLADIMIR PUTIN ROSE TO POWER AND WHAT AMERICA CAN EXPECT

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 27, 2000

                               __________

                           Serial No. 106-187

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
69-718                      WASHINGTON : 2001




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT MENENDEZ, New Jersey
CASS BALLENGER, North Carolina       SHERROD BROWN, Ohio
DANA ROHRABACHER, California         CYNTHIA A. McKINNEY, Georgia
DONALD A. MANZULLO, Illinois         ALCEE L. HASTINGS, Florida
EDWARD R. ROYCE, California          PAT DANNER, Missouri
PETER T. KING, New York              EARL F. HILLIARD, Alabama
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MARSHALL ``MARK'' SANFORD, South     ROBERT WEXLER, Florida
    Carolina                         STEVEN R. ROTHMAN, New Jersey
MATT SALMON, Arizona                 JIM DAVIS, Florida
AMO HOUGHTON, New York               EARL POMEROY, North Dakota
TOM CAMPBELL, California             WILLIAM D. DELAHUNT, Massachusetts
JOHN M. McHUGH, New York             GREGORY W. MEEKS, New York
KEVIN BRADY, Texas                   BARBARA LEE, California
RICHARD BURR, North Carolina         JOSEPH CROWLEY, New York
PAUL E. GILLMOR, Ohio                JOSEPH M. HOEFFEL, Pennsylvania
GEORGE RADANOVICH, California        [VACANCY]
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                  Mark Gage, Professional Staff Member
                     Liberty Dunn, Staff Associate




                            C O N T E N T S

                              ----------                              

                                WITNESS

                                                                   Page

The Honorable Madeleine K. Albright, Secretary of State..........     4

                                APPENDIX

Prepared Statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from the State of New York, Chairman, Committee on 
  International Relations........................................    33
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey...................................    34
The Honorable Madeleine K. Albright..............................    36

Additional material submitted for the record:

Response by the Honorable Madeleine K. Albright to additional 
  questions submitted for the Record by the Honorable Benjamin A. 
  Gilman.........................................................    49

 
  RUSSIA: HOW VLADIMIR PUTIN ROSE TO POWER AND WHAT AMERICA CAN EXPECT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 27, 2000

                  House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 10 a.m. in Room 
2172, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Chairman Gilman. The Committee will come to order.
    Good morning, Madam Secretary.
    Before we begin, I would like to commend you for your many 
efforts in addressing the many difficult foreign policy issues 
that you have had on your watch.
    Since this might be your last appearance before our 
Committee as Secretary of State, I thought it would be 
appropriate to acknowledge the diligent work you have done in 
representing our Nation to the world. So, on behalf of all of 
our Members, thank you for all you have done.
    We appreciate your coming before the Committee today to 
address the many issues related to our relationship with 
Russia.
    With the indulgence of our Members and in light of your 
schedule, we will have just two opening statements--by myself 
and by our colleague from Connecticut, the Ranking Member.
    Madam Secretary, we would then ask that you summarize your 
prepared statement so that we might then move more quickly to 
our Members' questions.
    Ladies and gentlemen, my colleagues, this morning's hearing 
is focused in large part on the past and current activities of 
Vladimir Putin, the new President of Russia.
    I think that we need to be concerned about several issues 
regarding Mr. Putin: his rise from obscurity to the highest 
levels of power; the sources of his current support; and his 
intentions for Russia's foreign policy, in particular toward 
the United States.
    Madam Secretary, within Russia there are voices of brave 
people who are truly dedicated to democracy and political and 
economic reforms warning us that Mr. Putin is not who he would 
have us believe he is.
    We all know, of course, that he has spent much of his life 
as a career KGB agent, but we also need to look more closely at 
how he rose to the presidency. He rose to the position of Prime 
Minister at a time when former President Boris Yeltsin was 
searching for someone who could ensure his safe departure from 
office. Indeed, after Putin entered the presidency, his very 
first action was to grant Yeltsin immunity from any 
prosecution.
    Additionally, we should note the manner in which Mr. Putin 
won that election. It was an election Yeltsin and Putin timed 
to the disadvantage of his opponents. It was an election in 
which the government-run media blatantly slandered Putin's 
opponents.
    Stories are now emerging in Russia's independent media 
about massive vote-rigging for Putin in the election. That is 
the same independent media now being intimidated by the Putin 
government. As one commentator said, the election was nothing 
more than a ``velvet coup,'' manipulated to such an extent that 
it simply handed power from Yeltsin to Putin.
    But there is much more than that which should concern us.
    Those surrounding Putin and former president Boris 
Yeltsin--including the Russian tycoon Boris Berezovsky--created 
a brand new political party late last year. This new party had 
almost no known political platform, but it benefited from the 
same kind of Kremlin support Putin later enjoyed. That new 
party won a considerable number of seats in the Russian 
parliament and immediately joined the Communists in excluding 
reform-minded parties from leading positions in that body.
    Now we hear reports that those around Putin, many of them 
former career KGB agents themselves, would like to create 
another new party. This potential new party would have a more 
left-wing face but would really be controlled by the Kremlin. 
As one courageous Russian journalist has said, Vladimir Putin 
and his supporters are now trying to create a ``managed 
democracy'' in Russia.
    But, again, there is even more that is puzzling about this 
new president and his government.
    Recently, we have witnessed what would appear to be a 
growing disagreement between Mr. Putin and Mr. Berezovsky. 
Berezovsky has, over the years, played a central role behind 
the scenes in the Yeltsin and Putin governments and has made 
tremendous profits out of the privatization process in Russia. 
But now, Berezovsky is publicly criticizing the Putin 
government and complains that he is under some pressures from 
it. However, at the same time, he and his associates have 
received quiet support from the Putin government for lucrative 
business deals that promise them greater wealth.
    Madam Secretary, I believe that all this points to one 
thing: We must be very cautious before accepting Putin as ``a 
man we can do business with,'' as our President recently put 
it. We need to start listening to those in Russia who truly 
support democracy and reforms.
    Over the past several years, I have made my concerns about 
our Russia policy known to you and the President in 
correspondence, in public articles, and in hearings on that 
policy held by this Committee. While Vladimir Putin's rise to 
power certainly stems from the situation in Russia over the 
past few years, I am concerned that the United States policy 
toward Russia has also contributed to his rise to power. Let me 
explain why I believe that.
    Russians who are truly interested in democracy and reforms 
have warned that our policy--a policy that continued to support 
Boris Yeltsin while corruption flourished around him--would not 
result in either democracy or reforms in Russia. Our own State 
Department personnel have stated--and testified before 
Congress--that they tried to warn our policymakers as early as 
6 years ago that the policy toward Russia had to change. Their 
warnings were ignored.
    A clear sign that our policy was flawed was our support for 
the IMF's decision to loan billions of dollars to the Russian 
government while billions and billions more were being shipped 
out of Russia to foreign bank accounts, month after month, year 
after year. Yet nobody in the Administration seemed willing to 
call the Yeltsin government to account for its corruption. 
Instead, a few perfunctory statements were made and a rather 
small program was designed to advise Russians on crime and 
corruption.
    Having failed to truly stand up to the massive corruption 
in the Yeltsin government, will anybody now call the Putin 
government to account for the sake of democracy?
    The independent media in Russia, the one major source of 
information about government corruption in that country, is now 
under attack.
    What is being said to Russian government officials, what is 
being done by our United States officials, to halt that 
intimidation and protect freedom of the press?
    Today, Madam Secretary, we hope you will give us some 
insight into how we got to this point in our relationship with 
Russia and where we go from here.
    Madam Secretary, let me say just one thing outside of the 
scope of our hearing today. With regard to your proposal for a 
new Under Secretary for Law Enforcement, Security and 
Terrorism, I have long-held concerns regarding the performance 
of State's INL office in fighting drugs. I have to regrettably 
say that there are too many unknowns about increasing the role 
of the State Department in law enforcement matters, and 
increasing bureaucracy doesn't guarantee better coordination. 
We ought not to tie the incoming Administration's hands in this 
area.
    Now, I would like to recognize my colleague from 
Connecticut, the Ranking Member, for his opening statement; and 
then we will proceed directly to the Secretary's testimony and 
the Members' questions. Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    Madam Secretary, I want to start off where the Chairman 
started. You have made all of us very proud in your leadership, 
both as our Permanent Representative to the United Nations and 
now as our Secretary of State. I think the global message that 
you send, first of all, to show the inclusive nature of this 
country as an immigrant to the United States and now as the 
woman who has reached the highest position in the U.S. 
Government, it is a symbol of how America views the world; and 
your leadership in connecting us globally and also in this 
country, making sure that the American people understand the 
importance of foreign policy and our foreign involvement, is 
something that will have a lasting impact here.
    You are really the first post-Cold War Secretary, in many 
ways, as the dust settles; and while there is much to complain 
about in Russia and elsewhere, what we have lived through now 
is the denuclearization of three of the former Soviet states. 
Belarus, the Ukraine and Kazakhstan no longer have nuclear 
weapons, the Russians have thousands fewer nuclear weapons as a 
result of your efforts and this Administration's efforts.
    We have seen three presidential elections and two 
parliamentary elections in Russia; and if there was any time in 
my growing up, growing up in a family that fled the Soviet 
Union in the 1940's, that we would be here with an opportunity 
to debate what level of freedom the press still retains in 
Russia, that in itself is good news.
    We obviously want to continue to press the Russians to 
follow a model of a democratic free society with a free press 
and a free market economy. We are heading in that direction.As 
we look at the economic indicators, in Russia things are 
improving. The middle class is growing.
    There are many challenges ahead, I can tell you. When there 
were opportunities to take political advantage of simply being 
confrontational with Russia, you and this Administration made 
every effort to engage Russia while urging compliance with the 
tough standard we have in the international community for civil 
society and democracy. But you have continued to build that 
relationship; and I think when history looks back at this 
Administration, getting through this transitional period will 
be one of the great marks on this Administration.
    Some people have tried to make politics out of Russia 
policy, but when you take a look at American national 
interests, you and this Administration have succeeded in 
representing America's interest in reducing the threat from the 
former Soviet Union and reducing the threat from Russia itself 
by removing nuclear weapons, missiles, submarines and bombers, 
and that makes every American and everyone in the world safer; 
and I want to thank you for that.
    Chairman Gilman. Madam Secretary, please proceed.

STATEMENT OF THE HONORABLE MADELEINE K. ALBRIGHT, SECRETARY OF 
                             STATE

    Secretary Albright. Thank you very much, Mr. Chairman and 
Members of the Committee. I can't thank you enough for your 
gracious remarks. There is no greater honor than to represent 
the United States, and I thank you very much for your kind 
remarks at the beginning, and I hope we can end up that way, 
too.
    Mr. Gejdenson. You might want to pull your microphone 
closer.
    Secretary Albright. This may, in fact, be my final time 
before you; and I have to say I will miss these opportunities. 
We don't always agree, but the American people can always count 
on this Committee to be forward looking and to approach 
important foreign policy issues in a bipartisan spirit, and I 
am sure that those qualities will be in evidence this morning 
as we talk about what I think is a very crucial issue, the 
United States' policy toward Russia.
    Since the Cold War's end, America has pursued two 
fundamental goals with Russia. The first is to make the world 
safer through cooperation on weapons of mass destruction and 
security in Europe, and the second is to encourage Russia's 
full transition to a free market democracy. On both we have 
moved far in the right direction, but it is not surprising, 
given Russia's past, that neither goal has been fully 
accomplished within the space of a single decade. Our focus now 
is on how to achieve further gains; and through our efforts on 
arms control, the United States and Russia have set the stage 
for further reductions in our strategic nuclear arsenals to as 
much as 80 percent below Cold War peaks.
    Since 1992, our assistance has helped to deactivate more 
than 5,000 former Soviet nuclear warheads. We have also helped 
to strengthen the security of nuclear weapons and materials at 
more than a hundred sites and purchased more than 60 tons of 
highly enriched uranium which could have been used by terrorist 
or outlaw states to build nuclear weapons.
    Throughout this period, fighting proliferation has been the 
top priority in U.S. Russia relations, and we have made 
considerable progress, but Russia's overall record on nuclear 
and missile exports remains mixed. We will continue to be frank 
with Russian leaders in stating our expectations, and we will 
take appropriate actions based on their response.
    More broadly, our security cooperation in Europe and 
elsewhere has proven steady despite periods of stress. Many 
predicted that our differences with Russia would lead to 
disaster, first on NATO enlargement and then on Bosnia and 
later on Kosovo. But today the NATO Russia partnership is 
active, and the U.S. and Russian troops are side by side in 
Bosnia and Kosovo.
    These and other examples of cooperation contrast sharply 
with the Cold War years, but here again problems remain. We 
believe that the new and democratic Russia should support 
democratic principles at home and abroad, and so we have 
objected strongly to Russia's support for the regimes in 
Baghdad and Belgrade. Russia has an obligation to observe U.N. 
Security Council sanctions against Iraq, and we look to Moscow 
to show its friendship to the people of Yugoslavia by 
supporting the desire they have so clearly expressed for new 
leadership and a place in Europe's democratic mainstream.
    The United States is also engaged with Russia on economic 
matters, where we have encouraged openness, reform and an all-
out fight against corruption. Compared to the financial crisis 
of 2 years ago, the Russian economy is doing well. President 
Putin's policies have been aided by high oil prices and 
improved levels of domestic investment. But the current 
recovery is fragile and built on a very narrow base. Russia has 
not yet made a deep enough commitment to reform, approved anti-
money laundering legislation or initiated a truly serious 
battle against corruption. As a result, foreign investors 
remain wary, and Russia's economic prospects are still in 
doubt.
    Mr. Chairman, I don't know how many Members of this 
Committee have visited both the old Soviet Union and the new 
Russia, but I can assure you there is a startling contrast. In 
the old days, Russians had no meaningful right to vote, 
worship, speak, travel or advocate change. Now they vote 
regularly and speak freely; and, with our help, they are 
beginning to develop the legal structures required for a rule 
of law. Over the past 11 years more than 65,000 NGOs have come 
into being.
    But in recent months the future of independent media has 
emerged as a revealing test of President Putin's attitude 
toward democracy. Several incidents of media harassment have 
prompted many to believe that a broad campaign is under way to 
intimidate or co-opt the media. President Putin has said a free 
press is the key to the health of a society, and we obviously 
agree, but it will be hard to take his statement seriously if 
Russia's state-run national gas monopoly, Gazprom, succeeds in 
its current effort to gain control of the Nation's largest 
independent TV network.
    Experts agree that after the disruptions of the last decade 
there is a widespread desire among the Russian people for 
leaders who will create a stronger sense of order and direction 
within society. As a result, order has become the big buzzword 
in Moscow; and Russia's new leaders are trying to instill a 
greater sense of it in Russian society.
    The big question is whether they have in mind order with a 
small ``o,'' which is needed to make Russia function, or order 
with a big ``O,'' which translates into autocracy. This is a 
fundamental choice that only the Russians can make.
    Their leadership is perhaps more instinctively pragmatic 
than democratic, but it appears to understand that Russia 
cannot succeed economically unless it establishes and maintains 
close ties with the democratic West. Our job is to make clear 
that economic integration and democratic development are not 
separable. If the Kremlin wants one, it must proceed with the 
other. This makes sense from our point of view and also from 
Russia's, because most Russians want to see order established 
in their society through the full realization, not the 
repression, of democratic practices and rights.
    To support this aspiration, the Clinton-Gore Administration 
has worked hard to develop relationships with Russians that 
extend far beyond the leaders in Moscow. We have done this 
through our meetings with local officials and entrepreneurs, 
through international exchanges and our support for independent 
media, trade unions, and the NGOs.
    We have also shown support for Russian democracy by 
speaking out against violations of human rights in, among other 
places, Chechnya. Since the fighting began in Chechnya more 
than a year ago, the United States has been consistent in 
calling for a political solution to the conflict and impressing 
Russia to allow a credible international presence to 
investigate abuses. Tragically, Russia still has no apparent 
strategy for bringing this war to an end or for reassuring the 
Chechen population about its future under Moscow's rule. 
Clearly,a new approach is warranted.
    Mr. Chairman, I think both Democrats and Republicans from 
the executive branch and on Capitol Hill can take pride in the 
steps we have taken to help Russians build a democratic future. 
It should not be surprising that neither our efforts nor those 
of Russia's strongest reformers have succeeded overnight. After 
all, communism was a 7-decade forced march to a dead end; and 
no nation went further down that road than Russia.
    It is beyond our prerogative and power to determine 
Russia's future, but we can work together on a bipartisan basis 
to explore every avenue for cooperation with Russia on the 
fundamental questions of arms control, nonproliferation and 
regional security. We can reach out to the people of Russia and 
help them strengthen their democratic institutions from the 
ground up, and we can back our words and our interests with 
resources so that the next President and Secretary of State 
will have the funds they need to lead not only to Russia but 
around the world.
    Mr. Chairman, whether one serves as a Cabinet Secretary or 
as a Member of Congress, we are all acutely aware that we only 
occupy temporarily the chairs of responsibility in American 
government. But we know as well that America's responsibilities 
are permanent, and we all do our best in the time allotted to 
serve well our Nation and its people. As I have said, it has 
been my privilege during the past 7 and three-quarter years to 
combine my service to our great country with that of the 
Members of this Committee.
    I listened to your statement very carefully, Mr. Chairman, 
and to yours, Congressman Gejdenson, and I would like to say 
that I am very glad to have an opportunity to talk about U.S.-
Russia relations. I didn't come to thinking about U.S.-Russia 
relations when I began to sit behind the sign. I have spent my 
entire adult life studying Russia, the Soviet Union and then 
Russia again. I have taught about it, I have thought about it, 
and I welcome the opportunity to discuss it.
    I hope that you would see from my statement that the 
Clinton Gore Administration has not seen Russia through rose-
colored glasses. We have been very realistic, and we have dealt 
with something that has never been dealt with before, of how 
you deal with a former adversary that had an empire and help to 
manage the devolution of that empire to not recreate an 
adversary.
    I am very pleased to have the opportunity to answer your 
questions on this subject.
    Chairman Gilman. Thank you very much, Madam Secretary.
    Let me start off by asking you, in light of the complaints 
by Russian journalists and democratic activists that the March 
election of Vladimir Putin was somewhat rigged by huge voter 
fraud, manipulation of the media and by blatant government-
sponsored attacks on Putin's opponents, how do we analyze that 
election?
    Secretary Albright. Let me say there are certain facts 
about the election that need to be known. Nearly 70 percent of 
eligible voters participated. The election showed that basic 
democratic processes and institutions are taking hold and that 
the Russians citizens are comfortable about making their voices 
heard at a ballot box. The OSCE called the election a massive 
expression of the will of the Russian people, but they did cite 
concern over unbalanced media coverage and pressure on the 
independent media.
    What I think, and we have made this point and I just 
restated it, is that, clearly, Putin did have advantages in 
terms of having special access to the media. We have made that 
very clear, and we have made the independence of the media very 
clear. Nobody is going to believe that the Russian government 
is committed to media freedom if, as I said, the independent TV 
is under government control. And make no mistake, Gazprom 
ownership of TV is government control. But I do think that we 
need to know that Putin was the most popular candidate, and he 
did appeal to the Russian people after a period of chaos.
    I am not sure how much of this you want to hear, but when I 
was a professor, I did a study of Russian society, and you 
could see that what was going on there already in 1992 was a 
sense of disorientation of the Russian people about how they 
were dealing with democracy. They had a sense about democracy 
and the free market, but they had lived under a different 
system for 70 years. The intellectuals were excited by 
democracy. The ordinary people were not sure how to handle it. 
Putin in many ways by his ability to talk about order within 
the chaos has appealed to the Russian people, and so I do 
believe that he was elected fairly.
    Chairman Gilman. Thank you.
    Madam Secretary, with the increasing numbers of career KGB 
agents being appointed to top government positions in the 
Russian government by President Putin, some analysts are saying 
that these ex-KGB personnel are a menace to Russian human 
rights. I am looking at a Reuters story by Deborah Sobrinko 
dated September 19th in which she states that the Internet has 
played a role in support of human rights but that it is 
vulnerable to tampering by members of the security services, 
and that, in any event, few people in the provinces can even 
afford computers, making newspapers and leaflets key sources of 
information, but that the human rights picture is getting worse 
in Russia's provinces. Could you comment on that for us?
    Secretary Albright.  I think that the situation of 
information in Russia is quite different than it was in the 
former Soviet Union and that it is impossible these days to 
close down information sources. There are a variety of 
information sources, both about what is going on there and what 
is going on in the rest of the world.
    We have made very clear, and I will say it again, about the 
importance of independent media. But I truly do think that the 
world is watching what is going on in Russia, and there are 
vast amounts of people who want to see democracy succeed. As I 
said, there are the nongovernmental organizations at the local 
areas where reformers are trying to change the system.
    I do not see Russia as again being governed in the sinister 
way that is described in that article. I think clearly there 
are problems, but I believe that there are certain changes in 
Russia that are now irreversible that we need to support and 
not see it again in this kind of sinister way.
    Chairman Gilman. Madam Secretary, with regard to U.S. 
interests in Russia and with Russia, what are we doing, for 
example, to insist that Russia halt its efforts to end 
sanctions on Saddam Hussein in Iraq. Can you tell us your 
feelings about that?
    Secretary Albright. As I have said, the sanctions regime 
for Iraq has held longer than any in the history of these kinds 
of regimes, 10 years. There have been lots of discussions. When 
I was permanent representative, I was very much a part of them; 
and I now obviously give instructions on how we deal with the 
issue.
    What is interesting is that, no matter the discussion about 
whether the sanctions are fair and whether the Iraqi people are 
suffering, all members of the Security Council, including the 
Russians, agree that Resolution 1284 is the guiding resolution. 
We are not happy about the fact that these flights are, we 
believe, not being dealt with in the way that we would through 
the Sanctions Committee, and we wish that the Russians would 
take a position that is closer to ours. But you do need to 
remember that everybody--the Russians, the French and others 
who may disagree--is saying that Resolution 1284 is a valid 
resolution.
    Chairman Gilman. Madam Secretary, what about Russia's 
nuclear and ballistic missile technology proliferation to Iran 
which continues today? What can we do to stop that and what do 
you plan to do?
    Secretary Albright. This is a subject of discussion at all 
times and at all levels. We have made our concern very clear. 
We have sanctioned the various entities that have been 
involved, and it is a regular part of our dialogue with the 
Russians. They know about our concern on it. I think we are 
making progress, but it is an area of concern. President 
Clinton has talked to President Putin. I have talked to the 
foreign minister, and across the board it is a matter of 
discussion.
    Chairman Gilman. Madam Secretary, will you insist that 
Russia close down the espionage station in Cuba and end the 
financial support that the rent for that station gives to the 
Cuban regime annually?
    Secretary Albright.  This is an intelligence issue, and I 
would prefer to discuss it in a different venue.
    Chairman Gilman. My time has expired.
    Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman.
    Even in the old Soviet days, the Russian people figured out 
what was on the level and what wasn't. When I was there in 
1982, I was told continuously that the two newspapers at that 
time were Pravda and Izvestia. One was truth; one was news. And 
the Russian saying was, in pravda, there is no izvestia; in 
izvestia, there is no pravda. ``In truth, there is no news; and 
in news, there is no truth.''
    Again, I really marvel at how far we have come, where there 
is an opposition press, Internet reporting is as rough and 
raucous as anywhere in the world, and I think that some of my 
colleagues are often looking to almost recreate the Cold War 
confrontation. I want to tell you how important it is, while we 
continue to confront the Russians in areas where they fail to 
meet democratic standards, that we need to engage them and not 
isolate them.
    We need to, frankly, do more commercial transactions with 
them, many of which are to the advantage of American technology 
companies, so that Russia's only markets aren't with rogue 
nations; and I really think Congress has often damaged 
opportunities to build a more solid relationship with 
legitimate Russian enterprise.
    Let me ask you two basic questions. One is the situation in 
Belarus. My father survived World War II because of the courage 
of two families in Belarus that hid them, my father and his 
brothers; and it is the worst of the former Soviet states in 
the direction it is going. Mr. Lukashenko seems to have Stalin 
as his model for governance. What do you think is happening 
there? How are our European allies helping or not being 
sufficiently helpful?
    Secondly, on the northern European initiative on the 
rotting submarines in Murmansk, how we can lead the effort to 
continue the cleanup there, which really has the potential of 
being a major international environmental disaster?
    Secretary Albright. If I might comment on your opening or 
what you said at the beginning before you asked the questions, 
I think that I cannot say often enough that we cannot recreate 
the enemy. If we do that, we do it at our own peril.
    I taught a course--and I won't take 50 minutes to answer 
this question--on U.S.-Soviet relations from the Revolution on. 
Both countries missed huge opportunities to have a different 
relationship. We are at a crucial turning point. If we see 
everything in red terms, we are in trouble. It is much more 
complicated than that. I am very discouraged by some of the 
comments already made, because I think we are going down the 
wrong path if we see everything as going down a black hole 
there.
    We understand the information issue; and to go back on 
something that the Chairman said, we have funded the creation 
of over 80 public-access Internet sites because we agree that 
access to information is important. And it is going on. It is 
not perfect. We have problems with the media.
    As far as Belarus is concerned, I think we are very 
concerned about what Lukashenko has done to dismantle 
democracy. He has violated the constitution, he has disbanded 
the legitimate parliament, and he has been really implicated in 
the disappearance of some prominent opposition members. Many 
Russians remain skeptical about Lukashenko's motives, despite 
the fact that some of them would like to see this unified 
approach of Belarus and Russia, but many members of the 
government and the Russian Duma have expressed concern about 
the cost of this unification for the Russian economy.
    We have worked very hard in Moscow and with our allies to 
make sure that we do not support what the Lukashenko regime has 
been doing, and we are not planning and have asked them not to 
send observers to the fall parliamentary election, which will 
be neither free nor fair. There is no difference in your view 
of Belarus and ours.
    As far as the Murmansk issue, I will have to get you a more 
complete answer on what we are doing with that.
    Chairman Gilman. Mr. Leach.
    Mr. Leach. Thank you, Madam Secretary.
    Perspectives are always difficult to apply to issues of the 
day, and no one wants to be discouraged, but frankness requires 
some assessments that are not precisely rosy at this time. 
Arguably, despite some rather terrific advancements in the 
democratic institutions, the situation in Russia is worse in 
many different ways than it was a decade ago, and American 
relations are worse in many different ways than it was a decade 
ago.
    Statistics speak for themselves. Today, the Russian economy 
is 25 percent smaller than it was in 1992. Today, fewer than 40 
percent of Russian babies are born healthy. Today, more than 10 
percent of Russian first graders suffer some form of mental 
retardation. Whereas 70 percent of the Russians had a favorable 
view of the United States in 1993, only 30 percent do today.
    Now, there are those that always like to assess that, when 
things go wrong, perhaps American foreign policy is at fault. I 
don't view it that way. I think most of the accountability is 
within Russia itself, but I do believe that there is some 
legitimacy to some of the critiques of American foreign policy.
    I don't want to go to the extreme of Professor Cohen who is 
perhaps considered one of America's preeminent Russian scholars 
today. He suggested that our foreign policy is an unmitigated 
disaster. He said it is the worst foreign policy since Vietnam, 
with consequences of more long-term end perils. That is an 
academic.
    Many have cited the concern--and, frankly, of all of the 
concerns I as an individual have--that our government has not 
identified with the problems of the Russian people and more 
closely identified with the new Russian ruling elite in the new 
Russian oligarchy, and this is a matter of deep concern.
    No one in this Congress wants to turn their back on Russia. 
A lot of people want to see policies put in place that benefit 
the Russian people more. But we don't see that occurring.
    I just wonder if you could look back at your time as 
Secretary of State and suggest where perhaps our policy, their 
policy, the intermingling of both policies may have had some 
difficulties; and are there any lessons to be learned as we 
look forward to a new century of relations with this seminally 
important country?
    Secretary Albright. In many ways, it is unfortunate that I 
am here answering questions on a subject that I know too much 
about. It is very hard to limit, especially when you have asked 
such a broad and interesting question.
    I think that the relationship between the United States and 
the Soviet Union, now Russia, over this century have been 
extremely complicated in many ways, but simpler for the period 
of the Cold War because we understood that they were the enemy 
and we went at it in a very systematic and careful way.
    Since the end of Cold War, I believe there was an 
immediate--immediately after it, a tremendous amount of 
euphoria about what it was possible to do with Russia and 
Eastern and Central Europe; and to some extent all of us were a 
part of it. I found again this survey that I did in 1992, which 
was also in Central and Eastern Europe and Russia, in some ways 
a cold shower even then, because it showed how difficult it is 
for countries that had been under this kind of a system to all 
of a sudden be able to enjoy the fruits of openness and 
democracy and a free market system.
    One of the things I always say about the free market system 
in Russia, they all said they were for it; and it was like a 
personality test. On the first page, you ask, are you an 
extrovert; and you say yes. And on the third page, you ask, do 
you like people; and you say no. There is some problem.
    So they were all for the free market system, but when you 
began to talk about do you believe in profit and banks and 
mortgages, whatever indicators there are, they didn't agree 
with that. So there was a lot to learn, and I think many people 
probably didn't get the profoundness of the change that was 
necessary.
    I think that we have done a lot to identify with the 
ordinary people. About a third of our assistance goes to local 
government and NGOs and dealing at the local level.
    If you believe, as we did and I believe many of you do, 
that the nuclear threat is a very large one, then our threat 
reduction, which is the large part of our program, you have to 
deal with the central government. It isn't a mayor in some 
local area that is in charge of nuclear weapons, and that is 
the major problem that we have.
    I believe we have identified very carefully with the local 
people. We deal with the elected officials, and I think you 
can't expect anything else.
    I also, having been an academic myself, I can understand 
academic rivalry, and some of the quotes come from people who 
have a certain sense of rivalry.
    Mr. Leach. I appreciate that. But some of the stiffest 
criticism comes from your former boss, Zbigniew Brzezinski, so 
I don't want this to be understood as a rival academic. These 
statistics are extraordinary, and they are deeply tragic. And I 
personally believe that the changing system itself is 
traumatic, and that systemic change is at the root of part of 
the problem. But I will say that, from a sheer economic 
perspective, it would be very, very hard to say that we have 
interrelated well with this great titan of a country.
    Chairman Gilman. The gentleman's time has expired. Thank 
you, Mr. Leach.
    Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman.
    Madam Secretary, let me just take a moment to express my 
highest admiration for the quality of work you have done for 
this Nation as our Secretary of State.
    Your childhood shaped your values; and they taught you to 
be engaged and involved, to be an activist, to stand up to 
dictators, whether they are called Hitler or Stalin or Slobodan 
Milosevic. You have done that with great style, and it will 
take a long time fully to appreciate the extraordinary quality 
of your service as Secretary of State.
    You asked rhetorically in your opening comments whether any 
of us have seen the old Soviet Union. Well, let me tell you, I 
first visited the old Soviet Union in 1956, and most recently I 
visited Russia earlier this month, and in between I have been 
there on countless occasions. I think it is important for us to 
understand that enormous strides have been made in transforming 
this vast country into an image which is infinitely more to our 
liking than we had any reason to expect just a few years ago.
    Since some of my Republican colleagues are highly critical 
of the performance of this Administration during the last 8 
years, let me just remind them, in all friendship, that the 
Soviet Union collapsed in 1989. This Administration came to 
power in 1993. The greatest moment for our potential impact on 
Russia was during the former Bush Administration between 1989 
and 1993.
    One of my colleagues quoted the statistic that there was a 
more favorable attitude toward the United States in 1993 than 
there is today, which is true. There was a lot more favorable 
attitude toward the United States in 1989 and 1990 and 1991 and 
1992. The Russians had great expectations, many of them 
unrealistic, with respect to U.S.-Russian relations; and they 
were disappointed during the first early years of the collapse 
of the Soviet regime.
    Madam Secretary, I want to deal with a couple of issues 
that I think are of enormous importance for the future. 
Clearly, the most valuable single thing we have done in the 
period since the collapse of the regime, apart from the nuclear 
weapons issue, has been to bring to this country large numbers 
of young Russians. We have now brought thousands and thousands 
of young men and women to this country. I have met with scores 
of them, and they clearly represent the most significant value 
for the long run in terms of changing Russian attitudes.
    I believe that your department and other agencies need 
desperately to have their resources increased to deal with this 
issue and other foreign policy issues. Last Friday, Madam 
Secretary, one stock, Intel, lost more value in one day--four 
times more value in one day than your entire annual budget. 
Intel's $90 billion loss in value represents 4 years of the 
State Department's budget, and I think this is a hell of a 
condemnation of the value we place on the importance of 
conducting foreign policy across the globe.
    I also would like to ask you to comment on attacks, 
particularly of Vice President Gore, in the Russian field. I am 
convinced, Madam Secretary, that we have never had a president 
or vice president more knowledgeable and more hands-on with 
respect to dealing with Russia than we have in Vice President 
Gore.
    All of the criticism that has been leveled at you and him 
and at the President with respect to money laundering and 
noninvolvement with Russian crime are demonstrably untrue. In 
1997, your Administration made a strong representation to the 
Russians to clean up their act with respect to money 
laundering, to clean up their act with respect to tolerating 
international crime.
    I also would like to suggest that your position of 
remaining engaged with the Putin regime is the only rational 
position. Sometimes those who would like to go back to 
isolationist approaches are the ones who simultaneously expect 
an all-powerful U.S. Influence in Russia, and the two are 
incompatible.
    I would be grateful for your reactions.
    Secretary Albright.  Let me, first of all, talk about the 
relationship that the Russians think that they have with the 
United States and the point that you made so clearly about what 
they expected between 1989 and 1993.
    Again, and I refer to this survey that I did, these were 
focus groups and also a huge survey. Ordinary Russians believed 
that the United States would do something like the Marshall 
Plan. They expected massive assistance, and they did see that 
all of a sudden they had the opportunity to say that and they 
were embarrassed by what the Soviet Union had done, and they 
had this feeling that they had a new opportunity.
    There clearly was no Marshall Plan, or even sums of money 
that come anywhere near. We have, thanks to all of you, been 
able to rename the State Department the Truman Building, which 
allowed us to go back and look at what the resource base was. 
In today's dollars, it was $100 billion that the State 
Department had at that time for our policies, and now it is one 
penny out of every Federal dollar. It is ridiculous.
    I have to tell you that the most embarrassing thing is that 
this--the richest and the most powerful country in the world 
spends one penny out of every Federal dollar on its diplomacy. 
I fully support the defense budget, but our diplomats and our 
diplomacy are the first line of defense, and I think people 
need to understand that we can't do it. We can't be the leaders 
of the world with the kind of budget slashes that are in 
Congress now--$2 billion below what we even asked. It is the 
most outrageous thing, and I hope that can be rectified.
    As far as the exchanges, I think that we really want to--
that is a hugely successful program, and we would like to see 
increases in that. Because that is how you really can make a 
difference. I appreciate your support on that.
    Now, in terms of this Administration, Congressman Leach 
said that we weren't dealing enough with other levels of 
government or ordinary people. Through the Gore Commission and 
all of his various partners in that, that is the way that we 
have managed to get into kind of the interstices of the 
government. There are subgroups and subcabinet groups, and they 
are working on every conceivable issue to do with U.S.-Russia 
relations on environment, on nuclear issues, scientific 
exchanges, across the board. I think it is a remarkable way to 
do business. It is the way that you get into the lower levels 
and layers, and the Vice President and that commission has 
taken a huge lead.
    I really do think that saying that this Administration has 
not paid attention to corruption and money laundering is 
ridiculous. It is a major point of our discussions with the 
Russians and with everybody else, frankly. We have pushed on 
that. We mention it in every meeting. I have, the Vice 
President has, the President has, and I really find that as a 
charge that has no credibility whatsoever.
    I also think what really troubles me is that we are--I am 
sitting here and saying that we have a realistic view of 
Russia. In my opening remarks and in all of my remarks you have 
seen that I am not bending over one way or the other. We are 
frank. I tell it like it is. We have problems, but we cannot 
recreate the enemy.
    Chairman Gilman. The gentleman's time has expired. I am 
going to caution all Members regarding the Secretary's schedule 
and ask for their cooperation. The Secretary has to leave by 
noon, and if you want a full explanation with regard to your 
questions, please don't spend the full 5 minutes on a lecture.
    Mr. Smith.
    Mr. Smith. Thank you, very much.
    Madam Secretary, welcome to the Committee. I would like to 
ask two basic questions, the first dealing with Chechnya and 
the second on the issue of corruption.
    First, I have held numerous hearings in the Commission on 
Security Cooperation on Chechnya and clearly have been very 
critical of many of those involved. I think we have done far 
too little.
    As a matter of fact, former National Security Adviser 
Brzezinski under President Carter testified on the Senate side, 
``It is tragically the case that the Administration's 
indifference to what has been happening in Chechnya has 
probably contributed to the scale of genocide inflicted on 
Chechens. The Kremlin paused several times in the course of its 
military campaign in order to gauge the reactions of the West, 
yet all they heard from the President were the words, `I have 
no sympathy for the Chechen rebels.' '' That was in April of 
this year.
    We had many people, Elena Bonner and many other people, the 
wife of Andrei Sakharov, Nobel Peace prizewinner, take the 
Administration to task for not stepping up to the plate and 
saying, how awful. Yes, we know war is awful but there would be 
a penalty if the terrible scorched earth policy in Chechnya 
began. We provided about $20 billion in U.S. aid to Russia. We 
have not lifted a finger to say to the IMF and the World Bank 
that there is a conditionality to those funds if and only if 
this terrible war stops. Yes, there have been some rhetorical 
statements made on it, but we all know in the early days of 
Chechnya, which claimed 80,000 casualties, the State Department 
said it was analogous to our own Civil War back in the 1860's. 
That, according to many of our witnesses, including Elena 
Bonner, gave the green light to the Russians at a crucial time 
when they could have said, will there be a penalty or not? How 
far do we probe? And now they have Chechnya II.
    My second point has to do with the corruption issue. I led 
the delegation to the OSC parliamentary assembly in Bucharest, 
and our whole focus was on corruption. Yet in this report put 
out by the Speaker's Advisory Committee there is a very, very 
strong criticism of the 1995 CIA report that was dismissed as 
bull, fill in the rest, by Vice President Gore.
    I chair the State Department's Authorizing Committee, and 
yet we now have testimony from a number of people, including 
Donald Jensen on Frontline, who says that cable was squashed 
with regards to corruption because it didn't fit into the 
paradigm and the parameters of giving good news about what was 
going on.
    That raises serious questions for all of us. This report, 
you can dismiss it, and I don't want to sugarcoat or engage in 
any kind of hyperbole. We need honesty and transparency. This 
seems to suggest that being in league, however unwittingly, 
with the Mafia and bad characters in Russia somehow has to be 
put aside and swept under the table.
    I would appreciate a response to Chechnya and to the 
corruption issue and particularly as the corruption issue is 
spelled out in this Speaker's advisory report.
    Secretary Albright.  Dr. Brzezinski and Alexander Haig came 
to see me about Chechnya. I have the highest respect for both 
of them, and I fully disagree with what they say. One of these 
days I will be a ``former,'' and then I will see what I can 
say.
    I really do think here that we have a problem. Chechnya is 
a very serious issue, and I have made that very clear publicly 
and privately to the Russians. I have told them that there is 
no military solution to Chechnya and that they have a political 
way to deal with it.
    I led the charge at the OSCE in Istanbul to make sure that 
they understood that they needed to have international access 
to Chechnya and that we agree with some of the statements that 
Mary Robinson, the Human Rights Commissioner at the U.N., has 
made.
    Every time I speak to Igor Ivanov, I raise the subject of 
Chechnya and the wanton crimes that are taking place there 
against the people. We have made that very clear, and we will 
continue to do so.
    I think Chechnya is a disaster for the Chechens and for the 
Russians. It is a very serious issue, and it is one that is on 
our plate, and we make no bones about it. I never said--I have 
to make clear, I have never made any--I have never indicated 
that I have any room for what is going on in Chechnya, and I 
will continue to do that.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Berman.
    Mr. Berman. Thank you very much, Mr. Chairman.
    Let me just quickly say that I consider it an honor to have 
had an opportunity to deal with you both as ambassador and now 
as Secretary of State. I am absolutely convinced that on a 
variety of the critical issues and notwithstanding some of the 
most partisan assaults on American foreign policy over the past 
8 years, you have made a tremendous mark and particularly a 
mark on elevating to the level of the Secretary of State a deep 
concern about humanitarian questions, human rights issues, 
questions of genocide, and have been a fighter within the 
Administration and in terms of public opinion as well in 
galvanizing support for America to play a role in trying to 
reduce the carnage, to get involved and not turn away.
    I am dying to see--I may die if I see--what the great 
eminences surrounding the Republican candidate for president, 
who love to criticize our overinvolvement in these issues, will 
do when these questions come up in the future. And they will 
come up. I hope I don't have an opportunity to test that 
proposition, but it is so easy to pick--but on the big moral 
questions you come down over and over again on the right side 
and fought against those who wanted to be--have a level of 
caution that would only allow the carnage to go on, fought to 
prevail.
    Martin Indyk is a friend. I believe what someone who has 
served this country so well is going through is terrible. But 
my questions don't involve Martin Indyk as a person. They 
involve two specific issues.
    The State Department has said, its security people have 
said that as the law enforcement agencies and it investigates 
this issue, one thing they can state is that there is no 
evidence of espionage and there is no evidence of turning over 
unclassified materials to unauthorized sources. Given that and 
given the critical role that he plays in the peace process that 
you have devoted so much time to, the President is so committed 
to, why can't he be allowed to serve his functions as--in the 
peace process, in that very important but limited area, dealing 
with his contacts in the Middle East--he is a critical part of 
your team in this area, and he can perform so many of these 
functions without regard to his ability to see and have access 
to classified materials that I would argue that having him 
there hampers our efforts to reach a successful conclusion. 
That is the specific question.
    The more broad question is the remarkable article in the 
New York Times on Monday where some of our most distinguished 
career diplomats, some named, some unnamed, but they sounded so 
distinguished, Sam Lewis, Mort Abramowitz, others, said if a 
key top diplomat had to look at all of his cables and all of 
the documents, they would be locked either in the State 
Department or embassy 20 hours a day; they could not have done 
their jobs.
    Somewhere we have to rethink the reality of how people 
function and perform their jobs. Obviously, security is a 
critical concern. Some people like to use security as a 
political assault weapon on these questions. I am very 
sensitive to that. But surely there are some rules of reason 
that apply here, and I am wondering to what extent those 
policies should be revisited.
    Secretary Albright.  Let me say--and Mr. Chairman, I would 
really request that I have a chance to answer this--the issue 
of security is a very important one and a difficult one in this 
age of technology and changes in the end of the Cold War.
    We have had some security lapses at the State Department 
where a missing laptop and various aspects drew everybody's 
attention to the fact that we needed to make sure that our 
security regulations, government-wide security regulations, are 
properly carried out. I made clear that we had to have zero 
tolerance and that all Foreign Service and Civil Service, 
everybody who works in the State Department, would have to also 
be judged on how security conscious they were and how they 
carried out their obligations. Which is one of the reasons that 
we are asking also for the Under Secretary for Security, 
because we have had buildings blow up and a variety of issues 
that are security related that require a great deal of 
attention.
    I think there are many hard things that I have done while I 
have been Secretary, but the Martin Indyk issue is among the 
most difficult. The recommendation came to me from the 
professional security people. My only opportunity in this was 
to overturn a recommendation.
    Mr. Berman. A recommendation that he be suspended from 
seeing classified information?
    Secretary Albright. Correct.
    Mr. Berman. I am not challenging that.
    Secretary Albright. He has not lost his position as 
ambassador, and I think that has been a misinterpretation. We 
are trying to figure out what we can do within the requirements 
of the investigation. Because I do think that Ambassador Indyk 
has been a valued person in the peace process, and an already 
difficult process is made more difficult.
    But I need everybody's understanding on the fact that the 
security issues generally are very difficult in this day and 
age. We may be overclassifying, all of us, throughout the 
government. I am trying here to find a middle ground in terms 
of not having witch-hunts or being lax. These are hard 
decisions, and I think we cannot have a culture of laxity as 
far as security issues are concerned.
    Martin is a good friend and a highly respected colleague, 
and this has been very difficult, but I do believe that we must 
have proper security.
    Chairman Gilman. The gentleman's time has expired.
    We have a number of Members who want to ask questions of 
the Secretary. I ask you, please don't lecture. Ask the 
question early on so that we can move quickly to our other 
Members.
    Mr. Berman. Is that a bipartisan request or just a 
Democratic request?
    Chairman Gilman. It is a bipartisan request. Mr. 
Rohrabacher.
    Mr. Berman. It is only to our side.
    Mr. Rohrabacher. I will get straight to my questions.
    Madam Secretary, 2 years ago you committed to me, at a 
hearing similar to this, that I would have all of the documents 
made available to me to examine concerning American policy 
toward Afghanistan. Because I made the charge then and continue 
to make the charge today, that there has been a covert policy 
of support of the Taliban by this Administration in 
Afghanistan.
    Madam Secretary, just today we finally got word from the 
State Department that the final batch of documents would be 
available. Do you think 2 years, 2 years, is a good-faith 
effort on the part of the State Department to comply with a 
request, a legitimate request from a member of an oversight 
committee to your department?
    Secretary Albright.  Congressman, we have been looking at 
the material and have had your request, and I believe that we 
have done it as expeditiously as possible.
    Mr. Rohrabacher. Two years.
    Secretary Albright.  You now have it.
    Mr. Rohrabacher. It is not in my possession; and finally we 
got a call today, after 2 years of requesting, that leads 
people to suspect that perhaps the suspicions about American 
policy in Afghanistan are accurate.
    Secretary Albright. Could I say absolutely, whatever the 
problem has been in delivering documents, I can tell you that 
we have done nothing to support the Taliban.
    Mr. Rohrabacher. Every time Rick Inderfurth, your 
assistant, goes to Pakistan, there is an offensive shortly 
thereafter by the Taliban wiping out their opponents; and we 
will go into that at another hearing at another time, perhaps, 
not in front of the public.
    Madam Secretary, your claim that we are not spending enough 
money because of our balanced budget commitment here in 
Congress for diplomatic needs, especially concerning the former 
Soviet Union, it rings a little bit hollow. Let me ask you, how 
does that stack up with the fact that there have been billions 
of dollars that we know that we have provided to the Soviet 
Union that have just disappeared? We have all heard and seen 
those reports. Are those reports inaccurate?
    Secretary Albright. There is no Soviet Union. It is Russia.
    Mr. Rohrabacher. Former Soviet Union, I said.
    Secretary Albright. We have given money. We have accounted. 
We work on accounting the money that has been provided in a 
variety of ways. I believe that we have done a very good job in 
terms of giving and getting the money to the right places. 
Obviously, we need to continue to track it very carefully.
    Mr. Rohrabacher. There has not been missing hundreds of 
millions or billions of dollars in IMF loans that have been 
extended to the Russian government?
    Secretary Albright. I think there have been some questions 
that we have tried to follow up. But I believe it is in our 
national interest to be able to provide assistance to reduce 
the nuclear threat and to help with the local government.
    I have tried very hard through my tenure as Secretary of 
State, as I said, I have had my partisan instincts surgically 
removed. I may have to go see the surgeon again very quickly. 
But I do think that we have to have some consistency here. 
Either we are not involved with Russia and are letting the 
children die and not doing enough and they hate us, or we are 
doing too much. I don't get it.
    Mr. Rohrabacher. Madam Secretary, being concerned about 
starving children to the point that you throw money down a rat 
hole, where corrupt people are stealing hundreds of millions of 
dollars--yet we still pour money down that rat hole, and then 
complaining to Congress that we are not giving you more. I 
don't believe that the American people hear that with a 
sympathetic ear.
    Secretary Albright. I respect the American taxpayers. To go 
back to what Congressman Berman said, it is in U.S. national 
interests to see where humanitarian horrors are happening, and 
I hope that we never think that it is not, and the American 
taxpayers support that.
    Mr. Rohrabacher. Sometimes we have an honest disagreement 
as to where to draw that line when we are dealing with a 
corrupt government. What about weapons transfers? As we are 
providing that aid to Russia and Russia is providing weapons to 
Communist China that are designed to kill American sailors, to 
sink American aircraft carriers, like the destroyers that were 
recently transferred from Russia to China?
    Secretary Albright.  As I understand it, they do not pose 
any threat, and I really do think that we are watching various 
arms transfers.
    I am not going to say that everything in our dealings with 
Russia is perfect. It is not. There are problems. We raise it 
with them. There are questions. We will continue to ask 
questions. There is corruption. We raise those questions all 
the time. But I think we have to keep this in context as to 
what is going on in terms of our trying to develop a 
relationship with a former adversary which serves U.S. national 
interests.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman.
    Let me echo all of the kudos that you have received today. 
I, for one, am convinced that Rick Inderfurth is not working 
for the Taliban. I want to put that out as a matter of record.
    Before I pose a question, because I want to make an 
observation, the Chairman in his opening remarks made 
references to the INL, with implications that I interpreted as 
somewhat negative. I want you to know that I, for one, have 
great respect for the INL. Randy Beers does a tremendous job. 
You have people on the ground in very, very difficult 
situations, particularly in Colombia, that are doing heroic and 
extraordinary work. They have the admiration and respect of not 
only American agencies such as the DEA but clearly the senior 
officials from the Colombian National Police. So I think it is 
important to get that out there.
    Secretary Albright. Thank you.
    Mr. Delahunt. I am also very happy that our Secretary of 
State doesn't believe everything that is stated in a Reuters 
news story about some vague analyst talking about something 
that I didn't even quite understand. This is very reassuring.
    Chairman Gilman. Do you want a response by Reuters?
    Mr. Delahunt. Let me get to my questions.
    The role of the Russian and Putin government in terms of 
North Korea and what hopefully appears to be a change in 
attitude as far as North Korea is concerned regarding its 
relationships with the rest of the world and also in terms of 
the recent elections in Belgrade, has there been any early 
indication of the Putin government's reaction to the 
preliminary results?
    Secretary Albright. Let me say that, in terms of North 
Korea, it fits into something that I tried to say before, that 
there are certain areas with which we will disagree with the 
Russians, where our interests are not the same, and certain 
areas where we have common interests. North Korea is one where 
we have a common interest. We think that it is very important 
that the issue of missiles and nuclear potential, there is 
something that needs to be dealt with, and we have had a very 
cooperative relationship.
    As far as the Balkans, as I said, the Russians are serving 
with us in Kosovo and Bosnia. They are part of the contact 
group. We have many discussions about it. We just had a meeting 
in New York with the contact group in terms of how we move 
forward in, hopefully, a post-Slobodan Milosevic era.
    I spoke to Foreign Minister Ivanov yesterday about what is 
happening in Belgrade. They are watching it very carefully, and 
I will speak to him later this afternoon. I think that--and 
Foreign Minister Vadreen is there today also. We are all 
watching very carefully, and the Russians had a monitoring 
group there from the Duma that had varied views, and they are I 
think formulating their reaction.
    Mr. Delahunt. I would hope that you would communicate that 
the expression I think of this particular Committee is that the 
Russians do have a potentially very critical role in what 
evolves in terms of the aftermath of those elections, and we 
will be watching that closely.
    Secretary Albright.  I agree, and I appreciate very much 
that comment. I will use it to good use later.
    Mr. Delahunt. Thank you.
    Chairman Gilman. Thank you very much.
    Mr. Chabot, I am going to suggest that, since the Secretary 
has only 35 minutes left and we have 12 Members remaining to 
interrogate, that we reduce the time for questions to 3 minutes 
for each Member. Without objection. Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman.
    I would like to use my time to discuss another important 
matter.
    I want to thank you, Madam Secretary, for taking the time 
last week to meet with me and with the gentleman from 
Cincinnati, Tom Sylvester. Many Members on the Committee will 
remember that Tom is one of those unfortunate left-behind 
parents whose daughter, Carina, is the victim of international 
parental child abduction. His daughter was stolen from him when 
she was 13 months old. She just turned 6 last week, and for 5 
years Tom has been trying to play a part in his daughter's 
life.
    He played by the rules. He won all of the way up the 
ladder, all of the way up to the Austrian Supreme Court, yet he 
still does not have his daughter.
    I can assure the Secretary that her personal interest in 
this case is appreciated not only by Tom Sylvester but by many 
other left-behind parents in this country. Madam Secretary, you 
have sent a message to those thousands of parents that they are 
not fighting this battle alone, and you are to be highly 
commended for your actions. We very much appreciate your effort 
to contact the Austrian chancellor on Tom and Carina's behalf, 
and we hope that you will be able to share some positive news 
with us either today or sometime in the very near future.
    Madam Secretary, I want to thank you for your courtesy and 
intervention. Your work on behalf of the stolen children and 
their parents is very much appreciated, and I want to thank you 
personally.
    Secretary Albright. Thank you. I was very moved by the 
meeting with Mr. Sylvester. I called Chancellor Schuessel as 
quickly as I could get him. I had a conversation with him. I 
think it is a serious issue that needs to have constant 
prodding, he said he would relook at things, but I can't give 
you a detailed report at this moment. But I did call 
immediately, and I will stay with it as we also look at a 
variety of cases like this. I think it is one of the very 
difficult aspects of our societies these days. I was very moved 
by Mr. Sylvester.
    Mr. Chabot. Thank you for your action. This Committee 
passed bipartisan legislation; Nick Lampson, a Democrat from 
Texas, has given speech after speech on the floor of the House 
trying to highlight this issue; and I would just encourage you 
and all other American officials when we are dealing with other 
governments to bring this issue up and let them know that good 
relations with the United States are dependent on their 
following The Hague convention, an agreement which they signed. 
Unfortunately, many, including Austria and Germany and Sweden 
and others, are not complying.
    Thank you for your time and attention, and we hope that you 
will continue to work on this in the future.
    Chairman Gilman. Thank you, Mr. Chabot.
    Mr. Hastings.
    Mr. Hastings. Thank you, Madam Secretary, for the good run 
for 7 and a half and almost 8 years.
    I sat here and I listened to my colleagues, and it began to 
sink in on me that I have had the good fortune of traveling 
with the Chairman of this Committee around the world on two 
occasions with stops in many places that you have visited. I 
would like to use my time to say to you, whether I have been in 
Africa or Asia or Australia or in the United States or the 
Middle East or India or Europe, you are held in the highest 
esteem by the people who are in diplomatic circles with whom I 
have interfaced, and interlocutors in China as well as 
elsewhere in the world. I would just like to add my thanks as 
my colleagues have for the tremendous service that you have 
given, as well as this Administration, to the world.
    I would like to lift from your prepared remarks two 
segments that I think are important because, as my colleague, 
Chris Smith, with whom I serve in the Organization for Security 
and Cooperation in Europe pointed out, corruption is an issue 
of vital concern for those of us that are policymakers. You did 
not have the time to say what I do have 1 minute to say and 
that is that, in 1995, President Clinton in Moscow called for a 
market based on law, not lawlessness. Deputy Secretary Talbott 
in 1996 told President Yeltsin and Prime Minister Chernomyrdin 
that they must bring under control the epidemic of crime and 
corruption.
    In 1997, Vice President Gore took the lead in pressing 
Russia to enact money laundering and anti-crime legislation. 
That same year, Secretary Summers of the Treasury declared that 
we must recognize that a successful campaign against crime and 
corruption must begin at the top.
    I know for a fact that in speeches here and elsewhere in 
the world you have constantly decried corruption, so I don't 
know what my colleagues are talking about. I don't know what 
special leverage they have that will cause them to be able to 
wave a magic wand and cause corruption in an area where 70 
years of oppression has existed. I find that difficult.
    Let me talk briefly and end by saying that there are other 
things that need to be looked at that and should be lifted from 
your prepared remarks. Our exchange programs have enabled 
nearly 45,000 Russian leaders of tomorrow to witness firsthand 
the workings of America's free market democracy, not to mention 
the interparliamentary exchanges that evidently some of my 
colleagues have forgotten that we participate in.
    More than a quarter million Russian entrepreneurs have 
benefited from our training and consulting on small loans. We 
have developed independent Russia media which now include more 
than 300 regional television stations. We have aided 
independent trade unions in seeking to establish their legal 
rights, and we have assisted thousands of nongovernmental 
organizations striving to build Russia's democracy from the 
grass roots.
    I don't think that the whole picture is bleak. I know that 
there is more to be done, but what you said is that you are not 
looking at this nor have you looked at Russia through rose-
colored glasses. I take seriously--and I, for one, as an 
internationalist and somebody that has traveled considerably, 
believe that you and this Administration have done a 
commendable job.
    I don't have any questions.
    Chairman Gilman. The gentleman's time has overexpired.
    Dr. Cooksey.
    Mr. Cooksey. Thank you, Madam Secretary; and I personally 
think that you have added a lot of flare to the office of 
Secretary of State. You have represented your gender very well. 
You have a lot more backbone than a lot of men in government 
politics, and I admire you for that.
    Three quick questions. A year or two ago, we were getting a 
lot of information about all of the bad things that were going 
on in Russia, and a lot of things were true. It has quieted 
down. Is that because Putin is controlling the press more so--
or are things really getting better? If you can think about 
those and answer that line of question. Are things really 
getting better in Russia, or is it that he is controlling the 
outflow?
    Second, it appears that the Russia military is about to go 
through a period of significant downsizing, if what Putin said 
is correct. There is an indication that for financial reasons 
he will have to downsize his strategic capability, ICBMs 
specifically. Do you think that he really is going to do this, 
or is this public propaganda that he is putting out?
    The third area, has at any time our government provided any 
intelligence information to the Russian military that has aided 
them in carrying out their mission in Chechnya--like satellite 
information, intercepted messages of phone conversations, 
telephone conversations?
    Secretary Albright. Thank you. Let me say the following:
    First of all, as I stated in my remarks, we are concerned 
about what is happening with the independent media. There is no 
question about that, and we--there needs to be an independent 
media armed within Russia, as in any country. And President 
Putin has said that it is important. However, there cannot be 
government control over it, and Gazprom ownership would 
indicate that.
    But that does not mean that, one, we do not have access to 
other information, nor that, in many cases, ordinary people 
don't have access to information. Because these days borders 
are porous, and we have made Internet available. So there are 
any numbers of ways that they now have huge amounts of 
information that they didn't have before. But we are concerned 
about the independent--the issue of the need for independent 
media.
    I do think, in some cases, things have gotten better, as 
you put it, in terms of the economy. They have benefited from 
their oil revenue, and there have been some beginnings of 
reform that we keep pressing on.
    My own estimation is not so much because Putin is a 
democrat but because he is a pragmatist and he understands that 
certain reforms have to be put in place if Russia is to be a 
great nation, which the Russians and he want. He is a pragmatic 
person. There is a lot of psychobabble about Putin, but I think 
that we need to be able to analyze where he is going. How is he 
working within Russia?
    On the question of the nuclear issue, we have been involved 
in START III discussions. We think that the Russians are going 
through a variety of discussions and debates about their 
military. I believe that they do want to cut their nuclear 
missiles that they have. We think that it is a good idea for us 
to be involved in these START III discussions.
    On the question of Chechnya, we have absolutely not done 
the things that you have suggested.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Cooksey. Thank you, Madam Secretary.
    Thank you, Mr. Chairman.
    Chairman Gilman. Ms. Lee.
    Ms. Lee. Thank you, Mr. Chairman.
    Madam Secretary, I want to see join with my colleagues in 
commending you for your leadership. Also, as a woman, seeing 
how you have dealt with the many challenges throughout the 
world that you have had to deal with, it has been remarkable.
    The former Soviet Union, now Russia, was very involved in 
the developing world, especially in Africa, providing technical 
assistance and military assistance to many of the liberation 
movements; and, oftentimes, the United States was on the other 
side. I believe oftentimes the ANC had been called a Soviet 
front. The ANC had actually been banned in this country for 
some time.
    Since the end of the Cold War, however, I am curious as to 
what Russia's relationships are now and what their policies are 
say, for instance, in Africa and in the Caribbean and also with 
regard to Cuba. What has been Russian involvement and policies 
toward Cuba since the end of the Cold War?
    Let me thank you for your leadership on Africa because 
there was a major void in Africa. The United States had not put 
Africa where it should have been by saying that Africa didn't 
matter in terms of our policy; and, of course, if history 
records it correctly, that allowed Russia the opportunity to 
get in there. What has happened since the end of the Cold War?
    Secretary Albright. First of all, I think you have put your 
finger on a very important issue as far as assistance generally 
is concerned. During the Cold War, both camps gave foreign 
assistance away to attract people. I think one of the reasons 
that we are having trouble now in getting the right amount of 
moneys for foreign assistance is that people need to see it in 
a way that it is in U.S. national interest to have these 
countries develop economically and with democratic governments 
and not just as a counter-communist activity.
    The Russians do maintain contact with some countries. I 
will have to give you a more detailed answer as to with whom 
and how much. I don't think that they have given their budget a 
great deal of assistance money.
    They continue to maintain relationships with Cuba, though 
they have had very difficult ones in terms of what Cuba owes 
them in terms of debt.
    But I think that basically their approach at the moment is 
that they are supporting peacekeeping operations, as we try to, 
in various countries, but the whole approach to this is 
entirely different. But I have to get you more specific numbers 
as to what they are doing.
    Chairman Gilman. The gentlelady's time has expired.
    Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you, very much.
    Following up on the issue of Cuba, Secretary Albright, it 
is always a pleasure to have you with us in our Committee. It 
is well documented that one of the primary tools used by the 
Russians to gather political, military, economic, commercial, 
and personal information about U.S. citizens and activities is 
the Lourdes facility in Cuba, yet it would appear that the 
Administration has followed a policy of neglect, ignoring the 
impact of the Lourdes threat and allowing it to escalate.
    Last year, I asked you about the upgrades and the 
expansions to this facility, and you said that no upgrades had 
been done. However, defense publications, newspaper reports, 
academic studies, published statements by U.S. and Russian 
officials all confirmed the significant investments that the 
Russians have made to upgrade and expand this spy station. 
Earlier this year, when you appeared before this Committee in 
February, I asked you if you had discussed the Lourdes facility 
with President Putin, and you did not answer. I provided you 
with the questions in writing, and I still have not received an 
answer.
    In March of this year, several Members of Congress sent a 
letter to the President with copies to you urging you to put a 
hold on the debt rescheduling given to Russia's operations of 
Lourdes. The argument was if the Russian federation has 200 to 
300 million dollars a year to pay the Castro regime for the 
leasing of Lourdes, then it has the funds to pay its debt to 
the U.S. No response to us.
    Then, on May 26, Chairman Gilman and Chairman Helms 
received a transmittal letter advising them that a rescheduling 
agreement had been signed in Moscow on that same day.
    I would like to know the reasons why the U.S. rescheduled 
Russian debt for the fifth time in spite of the fact that 
Russia spends hundreds of millions of dollars on the leasing, 
upgrading and operation of the Lourdes facility. Should the 
U.S. free up funds for Russia to spy on American citizens? Do 
you agree that if Russia did not spend these funds on the 
Lourdes facility then it would be in a much better position to 
address its economic problems domestically and meet its 
financial obligations to the U.S.?
    On June 16, the State Department finally responded to our 
Congressional inquiries, arguing equivalency to justify the 
rescheduling agreement and the maintenance of the Russian 
intelligence facility at Lourdes. I don't know when the U.S. 
became a debtor nation to Russia. I don't know why we would say 
equivalency to justify this rescheduling agreement. I would 
like to know what concrete steps the Administration has taken 
to address the growing threat that is posed by the Lourdes 
facility and that debt rescheduling process and why isn't it 
used as a tool to----
    Chairman Gilman. There won't be much time for the Secretary 
to respond. Madam Secretary, please respond.
    Secretary Albright.  Let me say I am sorry that you feel 
that you have not received proper answers on the Lourdes 
facility. These are issues that I can't discuss in public, but 
if you wish to have a further briefing we can arrange that.
    Let me just say that, on the debt issue, that I know this 
has been an issue which has been particularly controversial on 
the Hill, and particularly within this Committee. I think that 
it is very important to know that, as the Russian financial 
situation has improved, in part due to the high oil prices, we 
have heard much less about the need for debt relief, and so we 
have no plans at this time to participate in any bilateral or 
multilateral effort to forgive all or part of the Russian debt.
    Let me say generally, as I have said before, that the 
principal reason for rescheduling the debt is to maximize the 
prospect of repayment in the face of an imminent default; and 
that was the basis for the U.S. decision to join the August, 
1999, Paris Club Agreement to reschedule Russia's Soviet-era 
obligations that were falling due in 1999 and 2000.
    I think that here, in looking ahead, Russia has to have a 
new agreement with the IMF before the Paris club creditors 
would consider any further rescheduling for Russia; and as a 
part of that process there will be an examination of the 
Russian financing needs. As I said, at this stage this is not 
an issue.
    Chairman Gilman. Mr. Menendez.
    Mr. Menendez. Madam Secretary, let me join my colleagues in 
congratulating you in your service to our country. I have 
enjoyed working with you many times in agreement, sometimes 
not, but I have always admired the way in which you proceeded.
    On Russia, I understand the current Administration policy 
toward Russia is based on a belief that we are neither destined 
to have Russia be our adversary nor guaranteed to be our 
friend, and I think that is a very wise approach. I think that 
the Administration, yourself, and Vice President Gore have 
steered a course in a difficult period of time in Russia's 
history, considering that Russia is going through three 
monumental transitions--one from communism to democracy, one 
from empire and nuclear threat to nation state and nuclear 
partner, and from a centralized economy to a market economy. I 
think that, considering those enormous transitions, the 
Administration has charted a very good course. I have some 
concerns, as expressed by my colleagues, but, overall, I think 
the Administration has done a good job.
    I do have two questions. One is, what about Putin's 
overtures to countries like Iran, Iraq, Serbia? You already 
talked about North Korea, where our interests converge, and 
China. Can you give us a sense of your Russian counterparts as 
it relates to where our interests converge and conflict in 
those areas and how we see the future course of Russia in terms 
of our own interests in those regions, countries with which we 
have serious concerns?
    Secondly, I and many of my colleagues who pursue Latin 
America are very concerned about what is going on in Peru. We 
are concerned about Fujimori's statements in the Herald, and we 
are concerned whether or not those elections will ever take 
place. The timetable has been set.
    We are concerned about Montesinos' statement in Panama, 
almost threatening the Panamanian government that if he doesn't 
get asylum there he intends to come back to Peru. And from all 
indications the allegations of corruption and the abuse of his 
power as a security czar and intelligence czar there are of 
great concern to us. I don't think that we acted strongly 
enough when the elections were tainted as they were, but I hope 
that we take this opportunity now to make possible the 
democracy that should take place in Peru.
    Secretary Albright.  Let me say, on the first question--and 
let me deal with China. The Russians and the Chinese have 
something like a 3,000 mile common border. They have issues 
that they need to deal with. I think we have some disagreements 
with some of the approaches that they are taking with China, 
but I think we fully understand that it is not a zero sum issue 
as to whether they have a relationship with us or a 
relationship with the Chinese.
    Generally, we have questions about some aspects of--with 
the others countries, Iran, missile transfer technology issues 
that we raise all the time. With Iraq, we have a different 
approach in terms of some of the sanctions issues, but they do 
in fact, although they abstain on 1284, the resolution on Iraq, 
they are following through on it.
    On Serbia, I think that we have had some differences. Those 
may be coming to an end because I think the people of Serbia 
have spoken. I think it is very important for everyone to hear 
what they have said wherever that message is heard. I think we 
should congratulate the people of Serbia for having made their 
voices heard so fully, and they have spoken.
    On the issue of Peru, this has been to start with the 
elections themselves. We worked within the OAS to make sure 
that there was a dialogue system established. The OAS sent a 
representative to Lima, and I believe that was helpful in terms 
of moving Fujimori forward generally and looking at how he 
could improve the democratic situation in Peru. And I met with 
Fujimori in New York during the U.N. Session and made those 
points very clearly.
    On Montesinos, he is in Panama, but we do not believe that 
he should have immunity, and there should not be immunity, and 
I think that is our message. If there is, in fact, to be a 
democratic dialogue, that has to happen; and we want to make 
sure that the election process goes forward on a schedule; and 
we will continue to make that point.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman.
    Madam Secretary, it is nice to see you again. I most 
assuredly agree with you about the starvation diet that we have 
had for our State Department and our international presence 
generally. I am very concerned about security issues affecting 
our personnel abroad as well.
    We had a little exercise at Davos last January, looking at 
the biggest blunders of the 20th century, and one of the 
nominations was the way that the West, with the U.S. leading, 
handled aid to the former Soviet Union to Russia in particular. 
Congressman Leach has given, of course, some of the 
statistics--remarkably dire statistics--about what has happened 
to the life of the Russian people, their health, and their 
future.
    I am very critical of the way we handled the IMF loans to 
Russia. I call them the Yeltsin loans. I hope that we are not 
going to reinforce all of the wrong tenets, but I do understand 
that our impact has been exaggerated, and the Russians have 
also to take a share of the blame. I am concerned that, because 
of the disillusionment, President Putin will be able to come 
down hard on some of the freedoms they now enjoy with an 
autocratic kind of lead appealing to nationalism and that we 
are, therefore, in for a tough period in Russian-American 
relations. I hope that I am wrong about that, but I don't like 
the signs that I see.
    I wanted to ask you, Madam Secretary, if you would like to 
offer any opinions about the so-called Armenian genocide 
resolution which is said to have a great effect on Turkish-
American relations and once again affects California politics 
here. I know that the President of Armenia has been to Moscow 
just in the last week, and I wonder if you would like to talk 
about Russia-Armenian military cooperation or anything related 
to this general subject in the Caucasus region.
    Thank you.
    Secretary Albright.  Thank you. On the Armenian resolution, 
I think that this is a very important issue, and I thank you 
very much for asking because it is very much on our minds.
    President Clinton has traditionally commemorated Armenian 
Remembrance Day on April 24 by issuing a statement that 
recognized the loss of huge numbers of innocent Armenian lives 
in 1915 and after, and he has challenged all Americans to 
ensure that such events never occur again. We have emphasized 
to both Turkey and Armenia that we can neither deny history nor 
forget it, and we need to come to terms with it. But the 
legislative measures such as this one can hurt our efforts to 
encourage improved relations between Armenia and Turkey. This 
can't help promote peace and security in the region.
    I have to tell you, frankly, that passage could also 
undermine U.S. national interests in which Turkey is a partner, 
not just bilateral relations with a NATO ally, but also 
Turkey's cooperation on the Cyprus talks and the Nagorno 
Karabagh process in Iraq. So I think that it is very important 
that this resolution not go forward.
    As far as people not knowing about this whole issue, I 
think that people have studied this. They know it. Our Foreign 
Service officers are very much aware of it, and this is 
something that is of great concern to us. But this resolution 
at this time is damaging.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Crowley.
    Mr. Crowley. Madam Secretary, welcome again. It is good to 
see you. I join all of my colleagues in the accolades that you 
have received today for your work in a very difficult time in 
the history of the world. You are performing remarkably.
    I appreciate your comments on U.S.-Russian relations, and I 
have a question.
    My first issue is the global gag rule. I know that you have 
come out strongly saying that you didn't like what happened 
last year in terms of negotiations between the House and White 
House and that you would hope that not happen again this year. 
Could you maybe reiterate that again today and why you think 
that it is bad to have that policy within our budget?
    Secondly, the group known as Hadassah, the women's INS 
organization of America, has applied for a special consultative 
status as an NGO with the United Nations Economic and Social 
Council, ECOSOC; and it is my understanding that some 
countries, Syria and Lebanon in particular, have objected to 
their inclusion within ECOSOC as an NGO. My office has been 
working and discussing this issue with our very able Ambassador 
King at ECOSOC. I am concerned that after Israel has been given 
status in a subgroup within WEOG that there is still some 
outstanding antisemitism and antizionism in the U.N., and I 
would ask that you personally direct our mission in New York, 
to use your diplomatic abilities to impress our allies on 
ECOSOC NGO Committee to allow Hadassah to have the same 
responsibilities and status of all humanitarian-based NGOs.
    Secretary Albright. Thank you very much.
    Let me just say, on the family planning issue, this was a 
one-time thing where the President and I came back and said 
that we needed to make sure family planning was properly funded 
and there was not an international gag rule. It has tremendous 
effects on the lives of women all over the world. Women have 
died because they have not had the opportunity of choice, and I 
think that it is very important to see this not as pro-abortion 
but pro-choice. That is what this is about. We have made that 
very clear. We need to put the money back that was taken out. 
The United States needs to play a key role in this, and I hope 
very much that we will have support, because otherwise the bill 
will not see the light of day.
    On the issue of Hadassah, I will look into that particular 
issue, but I have to tell you that, on the whole, the 
atmosphere for Israel is much better in the United Nations. 
They now are allowed to be in WEOG in New York, but they want 
to be in the other parts, in Geneva and the other parts of 
this. We obviously want to see Israel having the full rights of 
membership that they ought to have in the United Nations, and I 
will look into the Hadassah issue.
    Chairman Gilman. Mr. Tancredo.
    Mr. Tancredo. Thank you, Mr. Chairman and Madam Secretary. 
Mr. Ed Pope was arrested by Russian security on April 3 during 
a business trip to Russia and charged with espionage. He 
suffers from cancer and may fall into ill health because of 
lack of proper care. What should the U.S. do in this regard? 
What can we do? Do you think that there is an opportunity for 
us to press this issue along the lines of perhaps tying it to 
assistance for Russia through the World Trade Organization?
    Secretary Albright.  Let me say that this is obviously a 
very serious case, and we have raised it repeatedly at the 
highest levels. The news today is that they are going to go 
ahead for a trial. We believe that this is not the way that it 
should be done. It is evident that this case needs to be 
handled at the highest levels, and we have talked about Mr. 
Pope every time that we have had the opportunity to do so. We 
consider what has happened here as outrageous.
    Chairman Gilman. The gentleman's time has expired.
    Mr. Royce.
    Mr. Royce. Thank you, Mr. Chairman; and thank you, Madam 
Secretary, for testifying here today.
    The Wall Street Journal on Friday opined that the Clinton 
Administration, the government, can be faulted for assuming 
that merely schmoozing with Russian leaders and funneling huge 
sums of money to them would help Russia recover. They wrote 
that backing the wrong Russian politicians, seeing no evil and 
insufficiently monitoring the use of Western money, these 
policies aggravated and entrenched the worst tendencies in 
post-communist Russia while wasting the precious goodwill 
America had with Russian people in the period just after they 
overthrew communism.
    Why do you think the top U.S. officials did not cut off 
their support for IMF loans and debt rescheduling for the 
Yeltsin government in 1995 and 1996 when that government set up 
the thoroughly corrupt loans for shares privatization in the 
highly speculative GKO bond market?
    Chairman Gilman. The gentleman's time has expired. Go ahead 
and answer the question.
    Secretary Albright.  Let me just say that I truly do think 
that the allegations that somehow we have not taken seriously 
what has happened in Russia in terms of the corruption and 
various aspects are just wrong.
    I also believe that it is very important to understand that 
for us not to engage with Russia and not to be able to show 
that we need to see reform cuts off an ability for us to work.
    We have looked at this very carefully. We are aware of the 
problems, but I think that it is a mistake to merely look at 
this as we are passing out money that is going down a black 
hole.
    Mr. Royce. But the foreign minister of Russia said, I have 
told Secretary Summers unless we have strings on this money, it 
will end up in an off-shore bank account.
    Secretary Albright. On the loans for shares, we strongly 
oppose that. So I think the important point here is to have the 
story straight.
    Mr. Royce. But not on the IMF loans.
    Chairman Gilman. Mr. Payne.
    Mr. Payne. Thank you.
    Let me just compliment the Secretary of State for her 
initiatives with Africa. I know that other members of the 
Cabinet--Treasury, Commerce, Transportation, many others--have 
gone, and we appreciate that.
    Just quickly, where does peacekeeping stand in Sierra 
Leone, the Democratic Republic of Congo, Ethiopia, Eritrea? 
Could you just in a nutshell say where that stands?
    Secretary Albright.  At the moment, we are working on 
trying to get a stronger mandate for the peacekeeping operation 
there and trying to get the numbers of troops up. We need to 
get our peacekeeping money operating so that we are able to 
support that.
    I really think, and this has to go with the point that 
Congressman Berman raised before, it is in our national 
interest to care about what happens in Sierra Leone. And I ask 
you to look at this picture of this child. I held a child like 
that in my arms when I was in Sierra Leone. It is in U.S. 
national interest to do something about it.
    Chairman Gilman. Madam Secretary, we thank you for your 
appearance today. We wish you a safe trip, wherever you may be 
headed. By unanimous consent, we will insert in the record a 
written statement by Congressman Smith and statements by any 
other Members. We may also forward Members' written questions 
to you, and I hope you will answer them at an early date.
    Again, we wish you well in all of your future endeavors.
    Secretary Albright. Mr. Chairman, if I can just say one 
thing. This has been a pretty sharp meeting, and I think that 
it is very important that I say the following thing:
    I believe that it is essential that there be a debate about 
U.S.-Russia relations. It is a very important aspect of our 
foreign policy, and so I appreciate the fact that these 
questions have been asked, but I think we have to be fair with 
each other about assessing the record and what the future is. I 
truly do believe that it is a service to have a discussion 
about U.S.-Russia relations. Thank you.
    Chairman Gilman. We thank you for that comment.
    Before you leave, Madam Secretary, let me say that there 
has been some criticism of travel by Members of Congress, and I 
would welcome your comment about that criticism.
    Secretary Albright. Well, I have always believed that 
Congressional Members should travel to see the places that we 
talk about. It is the only way to learn. I have always been a 
supporter of Congressional travel; and as somebody who has now 
been to 118 countries, I fully support traveling.
    Chairman Gilman. Thank you, Madam Secretary. I am familiar 
with your prior comments on that. Once again, we wish you well.
    The hearing is adjourned.
    [Whereupon, at 12:04 p.m., the Committee was adjourned.]




                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Benjamin A. Gilman, a 
   Representative in Congress from the State of New York, Chairman, 
                  Committee on International Relations
    The Committee will come to order.
    Good Morning, Madam Secretary.
    Before we begin, I would like to commend you for your many efforts 
in addressing the many difficult foreign policy issues that you have 
had on your watch.
    Since this might be your last appearance before our committee as 
Secretary of State, I thought it would be appropriate to acknowledge 
the diligent work you have done in representing our nation to the 
world. So, on behalf of all of our members, thank you for all you have 
done. We appreciate your coming before the Committee today to address 
the many issues related to our relationship with Russia.
    With the indulgence of our Members and in light of your schedule, 
we will have just two opening statements--by myself and by our 
colleague, the Ranking Member.
    Madam Secretary, we would then ask that you summarize your prepared 
statement in your testimony so that we might then move quickly to our 
Members' questions.
    Ladies and Gentlemen, my colleagues, this morning's hearing is 
focused in large part on the past and current activities of Vladimir 
Putin, the new President of Russia.
    I think that we need to be concerned about several issues regarding 
Mr. Putin: his rise from obscurity to the highest levels of power; the 
sources of his current support; and his intentions for Russia's foreign 
policy, in particular toward the United States.
    Madam Secretary, within Russia there are voices of brave people who 
are truly dedicated to democracy and political and economic reforms. 
They are warning us that Mr. Putin is not who he would have us believe 
he is. We all know, of course, that he has spent much of his life as a 
career KGB agent, but we also need to look more closely at how he rose 
to the presidency. He rose to the position of Prime Minister at a time 
when former President Boris Yeltsin was searching for someone who could 
ensure his safe departure from office. Indeed, after Putin won the 
presidency, his very first action was to grant Yeltsin immunity from 
any prosecution.
    Additionally, we should note the manner in which Mr. Putin won that 
election. It was an election Yeltsin and Putin timed to the 
disadvantage of his opponents. It was an election in which the 
government-run media blatantly slandered Putin's opponents. Stories are 
now emerging in Russia's independent media about massive vote rigging 
for Putin in the election. That is the same independent media now being 
intimidated by the Putin government. As one commentator said, the 
election was nothing more than a ``velvet coup,'' manipulated to such 
an extent that it simply handed power from Yeltsin to Putin.
    But there is much more than that which should concern us. Those 
surrounding Putin and former President Boris Yeltsin--including the 
Russian tycoon Boris Berezovsky--created a brand new political party 
late last year. This new party had almost no known political platform, 
but it benefitted from the same kind of Kremlin support Putin later 
enjoyed. That new party won a considerable number of seats in the 
Russian parliament and immediately joined the Communists in excluding 
reform-minded parties from leading positions in that body. Now we hear 
reports that those around Putin, many of them former career KGB agents 
themselves, would like to create another new party. This potential new 
party would have a more left-wing face, but would really be controlled 
by the Kremlin.
    As one courageous Russian journalist has said, Vladimir Putin and 
his supporters are now trying to create a ``managed democracy'' in 
Russia.
    But, again, there is even more that is puzzling about this new 
President and his government. Recently, we have witnessed what would 
appear to be a growing disagreement between Mr. Putin and Mr. 
Berezovsky.
    Berezovsky has, over the years, played a central role behind the 
scenes in the Yeltsin and Putin governments, and has made tremendous 
profits out of the privatization process in Russia. But now, Berezovsky 
is publicly criticizing the Putin government and complains that he is 
under some pressures from it. However, at the same time, he and his 
associates have received quiet support from the Putin government for 
extremely lucrative business deals that promise them even greater 
wealth.
    Madam Secretary, I believe that all this points to one thing: we 
must be very cautious before accepting Putin as ``a man we can do 
business with,'' as our President recently put it. We need to start 
listening to those in Russia who truly support democracy and reforms.
    Over the past several years, I have made my concerns about Russia 
policy known to you and the President in correspondence, in public 
articles, and in hearings on our Russia policy held by this Committee. 
While Vladimir Putin's rise to power certainly stems from the situation 
in Russia over the past few years, I am concerned that United States 
policy toward Russia has also contributed to his rise to power. Let me 
explain why I believe that.
    Russians who are truly interested in democracy and reforms have 
warned that our policy a policy that continued to support Boris Yeltsin 
while corruption flourished around him would not result in either 
democracy or reforms in Russia. Our own State Department personnel have 
stated--and testified before Congress--that they tried to warn our 
policymakers as early as six years ago that the policy toward Russia 
had to change. Their warnings were ignored.
    A clear sign that our policy was flawed was our support for the 
IMF's decision to loan billions of dollars to the Russian government 
while billions and billions more were being shipped out of Russia to 
foreign bank accounts, month after month, year after year. Yet, nobody 
in the Administration seemed willing to call the Yeltsin government to 
account for its corruption. Instead, a few perfunctory statements were 
made and a rather small program was designed to advise Russians on 
crime and corruption.
    Having failed to truly stand up to the massive corruption in the 
Yeltsin government, will anybody now call the Putin government to 
account for the sake of democracy?
    The independent media in Russia, the one major source of 
information about government corruption in that country, is now under 
attack.
    What is being said to Russian government officials--what is being 
done by our United States officials--to halt that intimidation and 
protect freedom of the press?
    Today, Madam Secretary, we hope you will give us some insight into 
how we got to this point in our relationship with Russia and where we 
go from here.
    Madam Secretary, let me say just one thing outside of the scope of 
our hearing today.
    With regard to your proposal for a new Under Secretary for Law 
Enforcement, Security and Terrorism, I have long-held concerns 
regarding the performance of State's INL office in fighting drugs. I 
have to regrettably say that there are too many unknowns about 
increasing the role of the State Department in law enforcement matters, 
and increasing bureaucracy doesn't guarantee better coordination. We 
ought not to tie the incoming Administration's hands in this area.
                               __________
      Prepared Statement of the Honorable Christopher H. Smith, a 
        Representative in Congress from the State of New Jersey
    Mr. Chairman, thank you for holding this important hearing on the 
question: ``How Vladimir Putin Rose to Power and What America Can 
Expect?'' Under your chairmanship, this committee has kept a strong 
focus on Russia--a nation that has the potential to be a positive force 
in the world or one that can present immense danger to us all.
    It is a pleasure to see Secretary Albright with us today. She is an 
articulate and forceful voice for the Administration and I look forward 
to her presentation.
    Mr. Chairman, as we come to the close of an Administration that 
promised us a ``strategic partnership'' with Russia, we see that this 
goal has come up short. The ``strategic partnership'' has clearly been 
rejected by Russia's policy makers and many Russians are now 
disillusioned about democracy and the Western version of ``capitalism' 
that they've seen since the fall of communism. I don't think anyone in 
the Congress believed that after 70 years of communism, Russia would 
turn into a full-fledged democracy with a flourishing economy 
overnight, or even in ten years.
    But neither did Congress believe that after all the financial aid, 
the humanitarian assistance, the army of advisors, experts, and 
consultants, the assessments missions, and whatever else the American 
taxpayer has been funding as part of the Administration's Russia 
policy, we would see so little results for our money. Russia's long-
term economic prospects are still precarious, the infrastructure is 
deteriorating, and as a result of the continuing healthcare crisis, the 
population is declining by an estimated 800,000 per year. At the same 
time, we now have the spectacle of the U. S. Government going to court 
with one of our nation's leading education institutions seeking $120 
million in damages over the mismanagement if that be the word, of what 
the Wall Street Journal calls the U. S. Government's ``flag-ship 
foreign aid program in Russia.'' Indeed, this Committee and other 
committees of the Congress have heard testimony from credible witnesses 
regarding corruption in Russia, yet to the best of my knowledge the 
Administration never really challenged the Yeltsin administration on 
this issue.
    Mr. Chairman, I will repeat what I have said previously on this 
subject. I am not prepared to say that all our aid to Russia has been 
stolen or misused, or that none of our assistance has been beneficial. 
I support projects designed to reduce the risk of nuclear accidents in 
Russia. I believe that our humanitarian aid programs for Russia, 
improperly administered and factually necessary, constitute a wise 
investment in our future. But while some of our aid has undoubtedly 
gone to worthwhile projects, much of it has obviously gone to feed the 
rampant corruption in Russia. While we and other donor nations were 
sending monetary and other aid into Russia, millions of dollars were 
going out of Russia into foreign bank accounts for well-placed elites.
    Meanwhile, Russia continues its bloody war in Chechnya. Let me say 
from the outset that I have no sympathy for lawless barbarians who 
kidnap and mutilate, sometimes even kill their victims because 
impoverished relatives cannot come up with the ransom money. But this 
does not justify total war against the Chechen people. Even pro-Moscow 
Chechen officials have criticized the Russian military's ill-advised 
actions in Chechnya, such as terrorizing Chechen civilians and driving 
them into the ranks of the guerrillas. The Los Angeles Times recently 
ran a story featuring horrifying interviews with more than two dozen 
Russian soldiers returning from Chechnya. Let me quote briefly from the 
article: ``What they recounted largely matches the picture painted in 
the human rights reports: The men freely acknowledge that acts 
considered war crimes under international law not only take place but 
are commonplace.''
    I believe that the Administration gave a ``green light'' to the 
Yeltsin Administration during the first Chechen War, and I think once 
the Russian Government and military saw that our protests would not be 
backed by serious actions, the Chechen people were doomed to the hell 
they are now experiencing
    And if any of the electronic media outlets question Mr. Putin's 
Chechnya policy or look too closely into the financial practices of 
people close to the throne, there are ways of dealing with them. We all 
know the problems with Mr. Gusinsky, owner of the largest independent 
television network in Russia. Other media leaders, even those most 
recently allied with the Putin Administration, are being squeezed out 
of the picture. Russian Government officials have made it clear that 
they intend, to one degree or another, to make the media a mouthpiece 
for the government.
    In the long run, Mr. Chairman, I am optimistic about Russia, but as 
John Maynard Keynes said, ``In the long run, we are all dead.'' For our 
own national interests and for the interests of the Russian people, we 
need to look at the short run and the medium run. No one in Washington 
has a magic wand that would solve all of Russia's problems in ten 
years. But I do believe we should have kept a closer look on the 
corruption in Russia, and what kind of Russia we might see a decade 
after the fall of communism.
    Mr. Chairman, the title of this hearing is ``How Vladimir Putin 
Came to Power and What Can America Expect?'' My impression from reading 
Mr. Putin's public statements and, more importantly, analyzing his 
actions, is that he is going to do whatever he thinks is in the 
interest of Russia, and what the United States thinks about his actions 
is not all that important. Maybe that's a little harsh, maybe I've 
misjudged the man. But I think we're a long way from ``Strategic 
Partnership.''
    I look forward to Secretary Albright's presentation and will have 
some questions to follow.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
  Questions for the Record Submitted to Secretary of State Madeleine 
              Albright by the Honorable Benjamin A. Gilman
Question:
    Secretary Albright, do you agree with Amb. Scheffer that an 
International Court would be better able to deal with war crimes than 
our current system? And, if so, what is the Administration actively 
seeking to find a way for the United States to become a party to the 
ICC?
Answer:
    The United States has long worked towards an effective 
international criminal court that will function efficiently and fairly. 
If that objective can be achieved, then the outcome will be preferable 
to the proliferation of ad hoc tribunals and special judicial 
mechanisms that have been employed to seek accountability for war 
crimes and other atrocities in recent years, but require significant 
financial and other support. However, we continue to have concerns 
regarding the 1998 Rome Treaty of the International Criminal Court and 
we are working to resolve them. Our fundamental concern with the Rome 
Treaty is that it provides a possibility that U.S. official personnel 
deployed overseas to preserve international peace and security and to 
participate in humanitarian missions, might be surrendered to the Court 
while the United States remains a non-party to the Rome Treaty. 
Surrender of such personnel would have a chilling effect on willingness 
of non-party states to remain engaged in peacekeeping and humanitarian 
operations. We are open to discussions with other governments about how 
to resolve this fundamental issue. We hope that governments can arrive 
at arrangements to preserve the integrity of the International Criminal 
Court and sustain the critical role of all responsible governments in 
peacekeeping and humanitarian operations. Achieving such arrangements 
during the ongoing Preparatory Commission talks would enable the United 
States to cooperate with the Court in several areas when it is 
established. The Administration has no plans at this time for the U.S. 
to become a party to the Rome Treaty.

                                COLOMBIA
Question:
    Questions have been raised about the package. As currently 
configured, is it too heavily weighted toward military assistance?
Answer:
    The U.S. assistance package in support of Plan Colombia addresses 
the breadth of Colombia's inter-related challenges and will help 
Colombia in its efforts to fight the drug trade, foster peace, 
strengthen the rule of law, improve human rights, expand economic 
development, and institute justice reform. While it is accurate to say 
that much of this assistance will go to equipment and training for the 
Colombian police and military, we believe the situation is such that 
Army protection is necessary in order to allow Colombian police forces 
to enter the expanding coca growing areas of southern Colombia, which 
are. mostly controlled by guerrillas and paramilitaries, in order to 
carry out their counternarcotics responsibilities.
    We also recognize the importance of Colombia's serious social and 
developmental problems and are committing almost $230 million over two 
years to alternative development, humanitarian relief, enhancing good 
governance, anti-corruption efforts and human rights. This is in 
addition to the over $4 billion that the Government of Colombia is 
committing to Plan Colombia from its own resources and from loans. This 
will be used for the implementation of Plan Colombia, which includes 
programs such as economic development and humanitarian assistance.
    Other donors, including the International Financial Institutions 
(IFIs) and the European Union, are providing additional hundreds of 
millions of dollars aimed primarily at strengthening social safety 
nets, humanitarian assistance, and infrastructure development as well 
as economic revitalization. The United States, as a member of the IMF, 
World Bank, and Inter-American Development Bank, firmly supports these 
institutions' programs/activities in Colombia.
Question:
    Is it (our assistance package) going to make a meaningful dent on 
Colombian coca production?
Answer:
    Yes. Current expectations are for the programs supported by the 
assistance package to reduce coca cultivation by fifty percent in 
Putumayo and thirty percent in the rest of Colombia in just two years.
Question:
    Is it going to lead to substantial displacement of peasants 
currently living in the Southern regions of Colombia where much of the 
coca production takes place?
Answer:
    Colombia's internal conflict has already forcibly displaced 
thousands of unarmed civilians fleeing fighting between paramilitaries, 
guerrillas and drug traffickers.
    There is a possibility of increased numbers of Internally Displaced 
Persons (IDPs) resulting from the increased counterdrug activity within 
Colombia. It is difficult to predict what the numbers will be, but for 
planning purposes, we are using 4,000 families for CY2000. In CY2001 
another 3,000 families and 15,000 day pickers may need alternative 
support.
    To counter this problem, our assistance package includes funding 
for emergency assistance to relocate those affected, as well as 
alternative development assistance to help growers switch to licit 
crops and other legal enterprises.
    Funding is also included to support civil society in peri-urban 
areas in order to anchor internally displaced people relocated there.
Question:
    Is the Colombian Government willing and able to take the hard steps 
to ensure that the human rights of its citizens are respected and that 
those who abuse such rights are prosecuted--whether they are members of 
the military or civilian sectors?
Answer:
    The Government of Colombia has demonstrated a strong commitment to 
improving its human rights performance. It has taken a number of 
measures to strengthen its institutional ability to promote and protect 
human rights. In July, President Pastrana signed legislation 
criminalizing genocide, forced disappearance, and forced displacement. 
A new military penal code entered into force in August, mandating the 
establishment of a legal structure outside the chain of command. Also 
in August, President Pastrana issued a presidential directive directing 
that crimes against humanity by security force members be tried in the 
civilian justice system. On October 16, Defense Minister Ramirez used 
new executive authority to dismiss 89 officers and 299 non-commissioned 
officers in an effort to professionalize and restructure the armed 
forces. we welcome these steps but know that more remains to be done. 
We continue to raise human rights concerns in our dialogue with the 
Government of Colombia at every opportunity and at every level. 
President Clinton discussed human rights with President Pastrana during 
his August 30 visit to Cartagena, and we believe President Pastrana and 
the military high command understand the need for strong and effective 
human rights measures. We have also urged the Government of Colombia to 
take necessary measures to end impunity for human rights violators and 
to ensure that any links between members of the security forces and 
paramilitary groups be severed. We have pressed the Government of 
Colombia to develop strategies to confront the paramilitaries more 
aggressively and to protect the civilian population from violence and 
intimidation, whatever the source.
Question:
    Most importantly, how do we ensure that there is regional support 
for the ongoing programs in Colombia, and that our efforts don't simply 
export Colombia's civil strife and coca production to its neighbors and 
thereby destabilize the entire region?
Answer:
    We are currently engaged in an ongoing dialogue with each of 
Colombia's neighbors, and other countries affected by the violence and 
narcotics trafficking in Colombia. We are encouraging the Government of 
Colombia to do the same. As part of that dialogue, we are sharing with 
these countries our understanding of what Plan Colombia is, and the 
nature and specifics of the U.S. assistance package. We are listening 
to their concerns, and giving our own estimation of how the programs 
involved in Plan Colombia could affect them. Where appropriate, we are 
offering assistance from our current budget, and identifying areas and 
programs that will need assistance in the future, as our regional 
strategy centered around Plan Colombia advances. Finally, we are 
continually emphasizing to these countries the importance of regional 
solidarity and the need for Colombia's friends and neighbors to support 
Colombia's peace process and counternarcotics efforts, and work 
together with us and the Government of Colombia to coordinate our 
efforts. We are pointing out that a failure to help Colombia cope with 
its problems will result in much worse consequences for its neighbors. 
In this way, we hope to be able to identify quickly any problem areas 
and work with them to direct appropriate resources to deal with them. 
before they affect stability in the region.
Question:
    Above all, we have to be honest about what is happening on the 
ground. The Administration was unable to certify 6 of the 7 human 
rights conditions associated with the Congressionally passed aid 
package. The President opted to utilize the waiver authority included 
in the legislation to move the assistance forward.
Answer:
    Using statutory waiver authority, President Clinton determined that 
it is in the national security interest of the United States to furnish 
assistance made available under the Emergency Supplemental Act to the 
Government of Colombia. Our assistance package is crucial to 
maintaining our counternarcotics efforts and aiding the Colombian 
government and people in preserving Colombia's democracy. Moreover, it 
is also in the national security interest of the United States to 
promote economic reform and hemispheric stability, all of which will be 
addressed by our planned support for Colombia.
    Human rights remain central to the United States' bilateral 
relations with Colombia. We are committed to working with the 
Government of Colombia to improve its human rights performance, 
especially in the areas of ending impunity for human rights violators 
and ensuring that all links between members of the security forces and 
paramilitary groups are severed. U.S. assistance to the Colombian 
security forces is provided in strict compliance with Section 564 of 
the FY 2000 Foreign Operations Appropriations Act (the so-called 
``Leahy Amendment''). No assistance is provided to any unit of the 
security forces for which we have credible evidence that such unit has 
committed gross violations of human rights, unless the Secretary of 
State determines and reports to the Appropriations Committees of the 
Congress that the Government of Colombia is taking effective measures 
to bring the responsible members of the security forces units to 
justice. We continue to press the Government of Colombia to take strong 
actions to confront the paramilitary threat and to protect the civilian 
population from violence by illegal armed groups. President Clinton had 
productive conversations with President Pastrana during his recent 
visit to Cartagena. Human rights were at the top of his agenda, and we 
believe President Pastrana and the military high command understand the 
need to take effective action against security force personnel 
implicated in human rights violations.
Question:
    I understand that recently two vetted units, the 24th Brigade based 
in Puerto Asis and the 12th based in Florencia, have been suspended 
from receiving training and assistance (according to the U.S. 
Ambassador Anne Patterson). What are the circumstances under which 
their aid was suspended? What happened between the time these units 
were vetted and now to lead to their suspension? What must happen, 
prior to resumption of U.S. assistance, to ensure that these units are 
not involved in human rights violations, or in aiding and abetting 
paramilitaries?
Answer:
    Assistance to the 24th Brigade was suspended in the fall of 1999, 
when the Department became aware of allegations of human rights 
violations committed by members of that unit in Putumayo. The most 
serious of these allegations, and the one for which there is the most 
documentation, involves an incident in February 1998 that resulted in 
the death of three individuals. The facts of the case are still in 
dispute, with widely varying stories given by the Colombian Army, NGOs 
and reported eyewitnesses. There is an official Colombian investigation 
underway. Although we have made no final determination as to whether 
the evidence against the 24th Brigade is credible or not, we deemed the 
allegations serious enough to warrant suspending assistance to the 24th 
Brigade as a matter of policy, until such time as the official 
investigation or other-sources develop more definitive information. We 
are pressing the Government of Colombia to complete its investigation 
as soon as possible.
    The situation of the 12th Brigade is different. The Department is 
aware of no credible evidence of gross violations of human rights by 
this Brigade. Assistance was suspended in August 2000, however, when 
the Department became aware that individuals who are currently under 
investigation by Colombian authorities for possible human rights 
violations had been transferred into the unit. Assistance will remain 
suspended until either the individuals are removed from the Brigade or 
the case is satisfactorily resolved.

                         THE SITUATION IN PERU
Question:
    Secretary Albright, as we all know, this weekend Vladimiro 
Montesinos, the ousted Peruvian Intelligence Chief, was admitted to 
Panama pending the outcome of his asylum petition. I understand that 
Mr. Montesinos' initial request to enter Panama was denied, but that 
subsequently the Organization of American States and the United States 
put substantial pressure on Panama to reconsider this decision and 
admit Mr. Montesinos. Is the fear that Mr. Montesinos' allies in Peru 
might move toward a military coup part of the reason that you are 
supporting his decision to flee to Panama?
Answer:
    We supported Panama's decision to receive Mr. Montesinos after the 
Government of Peru concluded that the only way to move forward on 
democratic reform was to arrange for Mr. Montesinos' departure. Our 
support was in line with that of OAS Secretary General Gaviria and 
several countries of the hemisphere.
    It was very evident from talking to our Latin American friends that 
it was important to the hemisphere to have Mr. Montesinos removed from 
Peru in order to relieve political tension, reduce the danger of 
instability, and enable OAS-sponsored talks on democratic reform to 
proceed. The Peruvian armed forces have stated their support for 
constitutional order and we expect that commitment will be honored and 
preserved. However, the political polarization in Peru remains very 
high and the situation at the time of Mr. Montesinos' departure was 
fragile.
    We commend Panama for its action, which enables Peru to move 
forward on ensuring conditions for a peaceful, democratic transition of 
power. It is important to note that, while we supported Panama's 
decision to receive Mr. Montesinos, we have not asked Panama to give 
him political asylum or immunity from prosecution. The issue of asylum 
is one for Panama alone to determine. We furthermore do not believe Mr. 
Montesinos' presence outside Peru excludes the possibility of judicial 
proceedings being brought against him by a future Peruvian government.
Question:
    What is the status of negotiations between President Fujimori and 
Opposition political parties to reach agreement on early elections?
Answer:
    The Government of Peru, the political opposition, and 
representatives from civil society are engaged in OAS-sponsored talks 
on democratic reform. This now includes discussion on President 
Fujimori's decision to call new elections. The parties have negotiated 
a package of constitutional amendments to curtail the current 
presidential and congressional terms and the Peruvian Congress has 
approved the package in a first of two required votes. We expect the 
Peruvian Congress will take up the second vote before the end of the 
year.
    While no date has been set for the elections, we believe they will 
take place in the spring of 2001, with the inauguration of a new 
president on July 28, 2001. Despite calls to the contrary from some 
sectors of the opposition, the parties to the OAS talks agreed to drop 
demands that President Fujimori step down immediately and all.ow a 
provisional government to oversee the transition.
    The OAS dialogue will soon address important issues related to 
reform of electoral institutions, freedom of expression, and full media 
access for all political parties. These reforms will be critical to 
ensuring a transparent process. We support the OAS-sponsored dialogue 
and call on political parties and the Government of Peru to continue 
their discussions on the full agenda of reforms. We are also 
coordinating with the OAS and other organizations on providing 
observers to monitor the campaign and election.

           THE PATTEN COMMISSION AND THE IRISH PEACE PROCESS
Question:
    President Clinton has been a full and ardent supporter of the Irish 
Peace Process, and has done more for the cause of peace in Ireland than 
any other American President. He was instrumental in negotiating the 
Good Friday Accords, and remains actively involved in encouraging the 
parties to fully implement the agreement.
    Today, after much hard work, we are at a point where specific parts 
of the accords can be implemented with success, and Ireland can be 
allowed to heal. However, the police reform legislation currently 
making its way through Britain's Parliament is itself the subject of 
controversy. That is because it does not fully implement the Patten 
Commission Recommendations in some key areas such as changing the name 
of the RUC and its symbols in order to demonstrate that this will be a 
new, professional service that seeks the participation of individuals 
from both communities--Protestant and Catholic alike.
    What steps has this administration taken to get this process back 
on track? I would note parenthetically that both Governor Bush and Vice 
President Gore have both publicly endorsed the full implementation of 
Patten. (See attached statements.)
Answer:
    The Administration is committed to achieving the goal set out by 
the Patten Report--a police service that enjoys the support of all 
sides of the community in Northern Ireland. Getting the policing issue 
``right'' is critical to the future of Northern Ireland, and we are 
urging that it not become the subject of political brinksmanship. We 
continue to work with the British and Irish Governments and with party 
leaders to restore confidence in the Good Friday Accord throughout the 
community and renew momentum toward its full implementation. President 
Clinton met with the new First Minister and Deputy First Minister 
during their historic first visit to Washington and reaffirmed that the 
United States will support the new devolved government in Northern 
Ireland. We are making clear to all sides that there is no alternative 
to the Good Friday Accord, which has opened up unprecedented prospects 
for peace and prosperity for the people of Northern Ireland. We call on 
all parties to work together to overcome their differences so that 
these historic gains are not put at risk. President Clinton has offered 
to help in any way he can.

                  MEXICO AND THE CERTIFICATION PROCESS
Question:
    With respect to Mexico, the recent election of Vincente Fox as the 
first opposition party candidate to win election since Mexican 
independence creates new opportunities for even closer cooperation 
between the United State and Mexico.
    One area where we need to get started on a better foot is in the 
area of the U.S. certification process which has been a matter of some 
friction between our two countries.
    Senator Kay Bailey Hutchison and I have introduced legislation to 
suspend that process with respect to Mexico for the year in order to 
allow both administrations time to work together in a cooperative 
manner. My own view is that I would like to see this process repealed 
totally and I hope that the two governments come up with a joint 
proposal to make that possible.
    With some years of experience with this process, what are your 
views on the current certification process?
Answer:
    The certification process allows the U.S. government to spotlight 
the importance we place on defeating the threat to our national 
security posed by narcotraffickers and other related international 
criminals. The full disclosure required by the current process compels 
countries to make progress toward a minimum acceptable international 
standard of cooperation in meeting the goals of an international 
convention to which all but a small minority of countries are parties. 
So far, certification has produced positive results and we support the 
process. That being said, however, we also support the OAS Drug 
Commission's Multilateral Evaluation Mechanism, which is designed to 
encompass all Western Hemisphere countries, providing a consensual 
forum for a frank exchange of views, evaluation, and remedial action in 
addressing individual country and regional counternarcotics 
performances.

                                   - 

</pre></body></html>
